<html>
<title> - PROMOTING AND INCENTIVIZING CYBERSECURITY BEST PRACTICES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









        PROMOTING AND INCENTIVIZING CYBERSECURITY BEST PRACTICES

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                     CYBERSECURITY, INFRASTRUCTURE
                        PROTECTION, AND SECURITY
                              TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 28, 2015

                               __________

                           Serial No. 114-29

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-918 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001























                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                    John Ratcliffe, Texas, Chairman
Peter T. King, New York              Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             Loretta Sanchez, California
Scott Perry, Pennsylvania            Sheila Jackson Lee, Texas
Curt Clawson, Florida                James R. Langevin, Rhode Island
Daniel M. Donovan, Jr., New York     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Brett DeWitt, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
       Christopher Schepis, Minority Subcommittee Staff Director
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Ratcliffe, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     1
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................     3
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Brian E. Finch, Senior Fellow, Center for Cyber and Homeland 
  Security, George Washington University:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Raymond B. Biagini, Partner, Covington and Burling:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Ms. Andrea M. Matwyshyn, Visiting Professor, Center for 
  Information Technology Policy, Princeton University:
  Oral Statement.................................................    22
  Prepared Statement.............................................    23

                             For the Record

The Honorable John Ratcliffe, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Letter.........................................................     3

 
        PROMOTING AND INCENTIVIZING CYBERSECURITY BEST PRACTICES

                              ----------                              


                         Tuesday, July 28, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:20 p.m., in 
Room 311, Cannon House Office Building, Hon. John Ratcliffe 
[Chairman of the subcommittee] presiding.
    Present: Representatives Ratcliffe, Perry, Donovan, and 
Langevin.
    Also present: Representative Watson Coleman.
    Mr. Ratcliffe. The Subcommittee on Cybersecurity, 
Infrastructure Protection, and Security Technologies will come 
to order.
    The subcommittee is meeting today to examine the potential 
benefits of expanding the Support Antiterrorism by Fostering 
Effective Technologies Act, referred to as the SAFETY Act, to 
clarify that on a voluntary basis cybersecurity products and 
services can be reviewed and certified to receive enhanced 
liability protections for large-scale cyber incidents.
    Right now, our cyber defenses are weak, and, because 
addressing cybersecurity vulnerabilities is costly, we need to 
find ways to promote and incentivize investment in 
cybersecurity. We need to incentivize companies to have a 
robust cyber-risk management plan in place. Through this 
hearing, we want to hear from our expert witnesses if the 
SAFETY Act Office at the Department of Homeland Security could 
be leveraged to promote and incentivize cybersecurity best 
practices within its existing framework.
    By way of history, the SAFETY Act was part of the Homeland 
Security Act of 2002 and is a voluntary program that currently 
provides incentives for the development and deployment of anti-
terrorism technologies. The SAFETY Act ensures that the threat 
of costly litigation does not deter potential manufacturers or 
sellers of anti-terrorism technologies at both large and small 
companies from developing and putting into the marketplace 
products and services that could reduce the risk or mitigate 
the consequences of a large-scale terrorist event.
    Companies qualify for the protections afforded by the 
SAFETY Act by demonstrating through an on-going basis that they 
have a comprehensive and agile risk management plan. Applicants 
to this voluntary program must submit to a rigorous and 
thorough vetting process at DHS' SAFETY Act Office in order to 
receive liability protections in the event of an act of 
terrorism.
    Homeland security and National security challenges are 
constantly evolving, and the cybersecurity threat is currently 
growing. It is in that capacity that earlier this year we 
passed H.R. 1731, the National Cybersecurity Protection 
Advancement Act. The goal of that legislation, which passed the 
House with a bipartisan vote of 355 to 63 and is now awaiting 
Senate action, is to strengthen the sharing of cyber threat 
indicators to guard against criminal groups, hacktivists, or 
nation-state actors.
    Separately, we have been meeting with stakeholders to find 
other ways to strengthen cybersecurity, including expanding the 
SAFETY Act for cyber purposes. Right now, the SAFETY Act can 
only be triggered by an act of terrorism. However, for cyber 
attacks, attribution is extremely difficult to determine. 
Regardless of whether the hacker was a terrorist, a nation-
state, a cyber criminal, or hacktivist, the impact of a 
devastating cyber attack would be the same.
    If there is something more that can be done to increase 
cybersecurity best practices overall and potentially reduce the 
likelihood of a large-scale cyber attack, this subcommittee is 
going to examine it. SAFETY Act coverage for cybersecurity will 
not solve all of our cybersecurity challenges, but it has the 
potential to make a significant improvement in our Nation's 
cyber defenses.
    In the coming weeks, the Committee on Homeland Security 
will consider House-passed legislation from the 113th Congress 
that would amend the SAFETY Act to establish a, ``qualifying 
cyber incident,'' threshold to trigger SAFETY Act liability 
protections for vetted cybersecurity technologies.
    The very creation of the Department of Homeland Security 
stemmed from the attacks on September 11, 2001. While we must 
and will remain vigilant and do everything we can to prevent 
another devastating attack on Americans, we must also recognize 
that the threat landscape in this country is changing. Cyber 
space is, in many ways, the new frontier, and a cyber 9/11 is 
only a matter of time if we fail to strengthen our cyber 
defenses. So we need to ensure that we are doing everything 
possible to harden our defenses left of boom, as they say in 
military parlance.
    This potential legislation has the potential to increase 
investments in the security and resilience of our Nation's 
critical infrastructure, including the power grids, air traffic 
control, and banking systems.
    Much of our Nation's critical infrastructure is privately 
owned, and in the 21st Century there now exists an 
interconnectedness of physical security and cybersecurity. This 
means that someone sitting at a keyboard can now initiate a 
physical injury by issuing commands at an office building, an 
air traffic control system, or someone's automobile, resulting 
in loss of life, not just the theft of personal information 
from a database.
    Many products and services weren't built with cybersecurity 
in mind. This is why we need to incentivize market-driven 
solutions to raise the bar on how we manage our cybersecurity 
risks. Fortunately, the United States is home to an ingenuous 
entrepreneurial culture, and the best high-tech companies in 
the world have developed products and services that can help 
improve the information security resilience of our critical 
infrastructure and for companies that improve our quality of 
life.
    If amending the SAFETY Act to include qualifying cyber 
incidents would better safeguard our Nation and potentially 
prevent a cyber attack that could shut things down and bring 
commerce to a screeching halt, then we owe it to ourselves and 
our constituents to examine the potential benefits it could 
provide. This is especially true given the increasing 
importance of cybersecurity in the lives of every American.
    At this time, I ask unanimous consent to insert into the 
record a letter from the American Gas Association, the Edison 
Electric Institute, and the National Rural Electric Cooperative 
Association in support of testimony submitted by Mr. Brian 
Finch on the need to clarify the SAFETY Act to ensure that 
significant cybersecurity incidents are clearly covered.
    Without objection, so ordered.
    [The information follows:]
              Letter Submitted by Chairman John Ratcliffe
                                     July 28, 2015.
The Honorable John Ratcliffe,
Chairman, Subcommittee on Cybersecurity, Infrastructure Protection, and 
        Security Technologies.
The Honorable Cedric Richmond,
Ranking Member, Subcommittee on Cybersecurity, Infrastructure 
        Protection, and Security Technologies, Washington, DC 20515.
    Dear Chairman Ratcliffe and Ranking Member Richmond: On behalf of 
the American Gas Association (AGA), the Edison Electric Institute 
(EEI), and the National Rural Electric Cooperative Association (NRECA) 
we are writing in support of testimony submitted by Brian Finch on the 
need to clarify the SAFETY Act to ensure that significant cybersecurity 
incidents are clearly covered under the programs liability protections.
    The electric and gas utility industries take cybersecurity threats 
very seriously. Any statutory clarification would be beneficial if it 
helps to make more explicit that cyber attacks are covered by the 
SAFETY Act and that legal defenses will be available to those using its 
certified cybersecurity products or processes in the event of a 
significant cyber attack. Currently, the SAFETY Act provides that 
liability protections are available in the case of an ``act of 
terrorism,'' which is usually interpreted to include a significant 
cyber attack. To eliminate any doubt, Congress should make clear that 
it intends for a significant cyber attack to be covered. This 
clarification would likely result in an increase in utilization of the 
program and adoption of its certified cybersecurity products or 
processes.
    We appreciate the subcommittee's continued focus on this important 
issue. The changes Mr. Finch has suggested are important and we look 
forward to working with you as legislation to clarify the SAFETY Act 
moves forward.
                                  American Gas Association.
                                 Edison Electric Institute.
           National Rural Electric Cooperative Association.

    Mr. Ratcliffe. I am pleased to be joined today by my 
colleague from Rhode Island, Mr. Langevin, who is filling in 
for Ranking Member Richmond.
    The Chair now recognizes the gentleman from Rhode Island 
for any statement that he may have.
    Mr. Langevin. Thank you, Mr. Chairman.
    I, too, want to welcome our witnesses here today.
    Before I begin, Mr. Chairman, I would like to ask unanimous 
consent that Mrs. Watson Coleman of New Jersey be allowed to 
participate in this hearing, although she is not a Member of 
the subcommittee.
    Mr. Ratcliffe. Without objection.
    Mr. Langevin. Thank you, Mr. Chairman.
    Next, as you mention, the Ranking Member is traveling with 
the President right now, so I am sitting in. I would like to 
ask unanimous consent to submit his opening statement for the 
record.
    Mr. Ratcliffe. Without objection, so ordered.
    [The statement of Ranking Member Richmond follows:]
             Statement of Ranking Member Cedric L. Richmond
                             July 28, 2015
    Good afternoon Mr. Chairman and thank you for holding this hearing 
on cybersecurity best practices.
    I want to thank Dr. Andrea Matwyshyn from Princeton who has 
traveled to testify for us today.
    The Department of Homeland Security, Science and Technology 
Directorate, is responsible for operating the SAFETY Act through the 
Office of Safety Act Implementation, or the OSAI.
    While we are going to hear testimony today about the process for 
companies interested in having cybersecurity technologies designated as 
qualified anti-terrorism technologies under the SAFETY Act, we are also 
going to discuss some of the features of the draft SAFETY Act 
legislation that Chairman McCaul has circulated to industry.
    The SAFETY ACT provides Government-sponsored immunity from 
liability to products or services that have gone through examination by 
the Office of Safety Act Implementation, and then designated, or 
certified under the SAFETY Act.
    Congress has provided this kind of liability protection since 2002 
to encourage innovation in the development of products and technologies 
for the homeland security enterprise that would help protect us from 
the terrorist threats or terrorist events, but only when the Secretary 
has determined that a terror event has taken place.
    It would seem to me that the large, prime contractors who already 
supply the Department of Defense would need little help in providing 
the Department of Homeland Security with the kinds of services they 
might need in the civilian threat arena.
    But small businesses are the backbone of America's workforce and 
innovation, creating most of the jobs in America. A SAFETY Act 
designation or certification for a new innovative product can improve a 
smaller company's bottom line and help resolve their concerns about 
liability protections. That was the original intent of the Act in 2002.
    We are all concerned about the ability of American businesses, 
large and small, to protect their data and networks in today's 
amplified cyber threat atmosphere.
    The question before us is how to best encourage civilian businesses 
to make sure their cybersecurity efforts are state-of-the-art, and how 
does SAFETY Act liability protection play a key role in helping us 
achieve that goal, in the complex, multi-layered arena of 
cybersecurity?
    I look forward to the testimony today Mr. Chairman, and I yield 
back.

    Mr. Langevin. Very good. Thank you, Mr. Chairman.
    So let me begin by saying that, as co-chair of the 
Congressional Cybersecurity Caucus with Chairman McCaul, I 
fully agree that organizations, public and private, must do a 
better job adopting cybersecurity best practices, as the 
consequences of cyber attacks can be devastating. I certainly 
also associate myself with the remarks of the Chairman in his 
opening statement, as well.
    It is also abundantly clear that network administrators are 
not currently employing best practices, given that over 80 
percent of cyber attacks could be stopped with simple hygiene 
measures like patch deployment or the use of two-factor 
authentication.
    I understand that some of our witnesses today and the 
Chairman believe that applying existing policy, the SAFETY Act, 
to this problem may help improve our Nation's cybersecurity 
posture. I have great respect for their point of view, and I 
certainly believe that incentives are an avenue that we should 
explore. However, I do think that there are a number of 
questions this committee should answer as part of our 
consideration.
    First, I think we must ask ourselves what we see as the 
underlying purpose of the SAFETY Act. I have always viewed the 
legislation as having at its heart the incentivization of 
research, design, and development of new technologies. Today, 
new information security products are being released at a 
prodigious rate, raising questions of whether further SAFETY 
Act protections are necessary to spur innovation. While the 
shield offered under SAFETY Act certification designation can 
certainly also incent deployment of these new, novel 
technologies, we at the committee must determine whether the 
act is properly tailored to the problem that we are addressing.
    Second, we must also look into the implementation of 
technologies certified under the SAFETY Act. Network security 
is incredibly complex, and users of security products can often 
make mistakes in configuration or interpretation of results. 
For example, in the Target breach, the company's security 
software alerted on the malware that eventually compromised the 
point-of-sale terminals; however, the alert was lost in a sea 
of other warnings. How limits of liability would apply in such 
cases is an important concern.
    Finally, we must examine the SAFETY Act in the context of 
cybersecurity risk management writ large. I have consistently 
fought efforts in Congress to prescribe specific technology 
solutions, either legislative or regulatory. Information 
technology simply moves too fast a pace to be able to say that 
today's best solutions will be viable in 5 years, let alone 
even less than that. Instead, I have advocated adoption of risk 
management frameworks like NIST that help companies assess 
their level of cybersecurity risk and development processes to 
reduce that risk.
    One of the best practices universally praised under such 
frameworks is resilience--the idea that a network should not 
rely on a single technology for protection. Part of the reason 
that data breaches last for more than 6 months, on average, is 
that companies prioritize perimeter security without a similar 
focus on detecting anomalies once the network has in fact been 
breached. So the committee must explore whether the use of the 
SAFETY Act in a cybersecurity context could inadvertently make 
networks less resilient.
    There are other questions I have--for instance, the 
adequacy of the certification process--that I hope the 
committee will also explore.
    Let me again thank the Chairman for convening this 
important hearing. I thank the witnesses for appearing, and I 
certainly look forward to their testimony.
    Mr. Chairman, before I yield back, I would just ask 
unanimous consent that the statement of the Ranking Member of 
the full committee, Mr. Thompson, also be entered into the 
record.
    Mr. Ratcliffe. Without objection, so ordered.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 28, 2015
    Good afternoon. I want to thank Chairman Ratcliffe for calling 
today's hearing on encouraging cybersecurity best practices, and I want 
to thank the witnesses for testifying here today.
    I especially want to thank Dr. Andrea Matwyshyn from Princeton 
University who has come to share her expertise and experience with us.
    Today, we will be discussing the prospect of amending the SAFETY 
Act law to promote certification of more cybersecurity technologies as 
qualified anti-terrorism technologies. Given that there is draft 
legislation circulating, prepared by the Majority to amend the SAFETY 
Act in this manner, this hearing is timely.
    Today, under the SAFETY ACT, DHS provides immunity from liability 
to products or services that have been rigorously examined by the 
Office of Safety Act Implementation.
    Congress directed DHS to establish this program to encourage 
innovation in the development of novel anti-terrorism technologies.
    As I noted in a previous hearing several years ago on this matter, 
the Government does not charge a penny to perform exhaustive reviews of 
each company's product that applies for, and is qualified for, SAFETY 
Act approval.
    Mr. Chairman, I am wondering whether in our current fiscal 
situation, Congress should consider requesting a fee from companies 
with the means to seek pursue this process and desire to secure the 
liability protection and marketing advantage that comes with SAFETY Act 
certification.
    When this committee first began to examine the activities of the 
SAFETY Act Office, I encouraged the Department to perform dedicated 
outreach to attract small, minority, and disadvantaged businesses to 
obtain SAFETY Act certification, and to help them go through the 
complicated and time-consuming SAFETY Act approval process.
    The reasoning behind this emphasis was simple. Large multinational 
companies who are likely the prime developers of technologies in the 
homeland security enterprise, are mostly already involved with 
providing the Department of Defense technologies and services in that 
sphere.
    In contrast, small businesses with promising technologies face 
countless barriers to entry in the marketplace. Given that these firms 
are often the innovators and the backbone of America's workforce, it is 
important that DHS go the extra mile.
    A SAFETY Act designation or certification can improve a company's 
bottom line and help small, savvy companies create jobs. Large, well-
funded companies need less help, and those companies are usually 
stocked with a bevy of corporate lawyers to guide them through any 
concerns about liability protections or access to DHS acquisitions.
    The draft legislation that is in circulation has no special 
emphasis on small businesses. I am hopeful that as the bill moves 
through the legislative process, we can come together to ensure that it 
does.
    I would also put on the record my concern that that the funding to 
expand the Safety Act Office would not be ``new money'' but rather 
taken from other DHS activities. It is important to know where that 
money would be taken from and what capabilities or programs would be 
affected or diminished.
    More broadly, there are basic questions about how this legislation 
would drive innovation with respect to cyber technologies.
    We would not want to foster an environment in the marketplace where 
companies grow complacent having only an interest in securing blanket 
liability protections outweighing the energy of innovation.
    I look forward to the testimony today Mr. Chairman, and I yield 
back.

    Mr. Ratcliffe. Other Members of the committee are reminded 
that opening statements may be submitted for the record.
    We are pleased today to have with us a very distinguished 
panel of witnesses on a very important topic.
    Mr. Brian Finch is a senior fellow at the Center for Cyber 
and Homeland Security at George Washington University. Mr. 
Finch has a diverse background in homeland security issues and 
the SAFETY Act.
    Thank you for being here, Mr. Finch.
    Mr. Raymond Biagini is a partner at Covington and Burling. 
He has extensive experience and background in drafting the 
original SAFETY Act language and also assists companies in 
obtaining SAFETY Act certifications.
    Welcome, Mr. Biagini.
    Finally, we are pleased to be joined by Professor Andrea 
Matwyshyn--did I pronounce that right?
    Ms. Matwyshyn. You did.
    Mr. Ratcliffe [continuing]. Matwyshyn, who is a visiting 
professor at the Center for Information Technology Policy at 
Princeton University.
    Professor, thank you for being here.
    I would now ask each of the witnesses to stand and raise 
your right hands so I can swear you in to testify.
    Do each of you swear or affirm that the testimony which you 
will give today will be the truth, the whole truth, and nothing 
but the truth, so help you God?
    Let the record reflect that the witnesses have answered in 
the affirmative.
    You may be seated.
    The witnesses' full statements will appear in the record.
    The Chair now recognizes Mr. Finch for 5 minutes for his 
opening statement.

 STATEMENT OF BRIAN E. FINCH, SENIOR FELLOW, CENTER FOR CYBER 
      AND HOMELAND SECURITY, GEORGE WASHINGTON UNIVERSITY

    Mr. Finch. Chairman Ratcliffe, Ranking Member Richmond, Mr. 
Langevin, distinguished Members of the subcommittee, my name is 
Brian Finch, and thank you for inviting me to testify before 
you today on how to effectively promote and incentivize 
cybersecurity best practices.
    I firmly believe that promoting and incentivizing the use 
of cybersecurity best practices is critical to our Nation's 
security. The challenge, however, is determining what is, ``the 
best,'' or even, ``quite good.'' The SAFETY Act can help us 
with that right now.
    Let me begin by stating what I will not be promoting in my 
testimony. I will not advocate for expanding the liability 
protections offered by the SAFETY Act or what triggers those 
protections. I will not seek to reinterpret the original intent 
behind the SAFETY Act. Rather, I will discuss how cyber attacks 
and cybersecurity technologies are covered under the SAFETY Act 
as currently written. I will also cover how a minor tweak to 
the law will improve its use in the cybersecurity context.
    As this committee knows, SAFETY Act protections are 
triggered when the Secretary of Homeland Security declares that 
an, ``act of terrorism'' has occurred.
    Under the SAFETY Act, an act of terrorism is defined as an 
event that is, ``one, unlawful; two, causes harm to a person, 
property, or entity in the United States; and, three, uses or 
attempts to use instrumentalities, weapons, or other methods 
designed or intended to cause mass destruction, injury, or 
other loss to citizens or institutions of the United States.'' 
Nothing in that definition excludes cyber attacks.
    Further, note that the SAFETY Act already explicitly states 
that cybersecurity technologies are eligible to receive 
liability protections. All of the above is why the DHS has 
already approved cybersecurity SAFETY Act applications.
    Despite all of this, too many people are still unsure of 
whether the SAFETY Act applies to cyber attacks and 
cybersecurity technologies. To cure this, the House should once 
again unanimously pass section 202 of the National 
Cybersecurity and Critical Infrastructure Protection Act, or 
NCCIP. That section clarified the SAFETY Act by adding two new 
terms to it, ``cyber incident'' and ``cybersecurity 
technologies.'' Those new terms merely made explicit 
protections already available under the SAFETY Act.
    As we all know, the decision of Executive branch members to 
declare a particular event an act of terrorism in any context 
is a difficult one. Terms such as ``workplace violence'' and 
``cyber vandalism'' are used instead of the ``T'' word. While I 
offer no opinions on the language used by the Executive branch 
to describe certain events, I can say that preventing or 
mitigating the outcomes that occurred in those events is 
exactly what Congress intended when it passed the SAFETY Act. 
That is why giving the Department of Homeland Security 
Secretary a term other than ``terrorism'' to use when bringing 
in the liability protections of the SAFETY Act is so important.
    Now, if you will allow me, I would like to provide two 
examples where, if we could clarify the SAFETY Act, it would 
allow for vastly improved cybersecurity best practices.
    First, let me talk about cyber risk groups. Companies could 
use risk-pooling mechanisms like risk-purchasing or risk-
retention groups to increase their defenses and better mitigate 
risks.
    Here's how that would work. First, a group of similarly-
situated companies would agree to use certain security 
standards or technologies, such as, for instance, detonation 
chambers or the NIST Cyber Framework. Next, those companies 
would then either jointly purchase a cyber insurance policy or 
create a pool of insurance that they would all maintain and 
participate in. Third, the risk group would also agree to 
pursue SAFETY Act protections for the security standards that 
they have agreed to commit to adhering to.
    All of this would be possible thanks to the vetting 
conducted under a clarified SAFETY Act. I would add that this 
pooling-risk purchasing agreement would be of particular value 
to small businesses, as well as to companies in historically 
underserved communities, as it would allow their dollars to 
travel further.
    Next, cyber HMOs. I argue that cyber insurers should be 
using a health insurance model to promote best practices. Why? 
Because, under the cyber HMO model, it promotes wellness 
behavior that prevents minor scratches from developing into 
serious infections. That cyber HMO plan would also give the 
insured access to a vast network of cybersecurity vendors and 
professionals, as well as low-cost or free access to basic 
cyber hygiene, such as annual physicals, i.e., compromise 
assessments, or vaccines, in this case, perimeter defenses.
    By encouraging the use of SAFETY Act-vetted products or 
services, the HMO and its policyholders would have greater 
confidence in the tools they are using to promote cyber health.
    Thank you for the opportunity to testify, and I welcome any 
questions this committee may have.
    [The prepared statement of Mr. Finch follows:]
                  Prepared Statement of Brian E. Finch
                             July 28, 2015
    Chairman Ratcliffe, Ranking Member Richmond, distinguished Members 
of the subcommittee, thank you for inviting me to testify before you 
today on how to effectively promote and incentivize cybersecurity best 
practices.
    My name is Brian Finch, and I am here today testifying in my 
capacity as a senior fellow with The George Washington University 
Center for Cyber and Homeland Security, where I am a member of the 
Center's Cybersecurity Task Force.\1\ I am also a partner with the law 
firm of Pillsbury Winthrop Shaw Pittman LLP, a senior advisor to the 
Homeland Security and Defense Business Council, and a member of the 
National Center for Spectator Sport Safety and Security's Advisory 
Board.
---------------------------------------------------------------------------
    \1\ While I am testifying in my capacity as a senior fellow with 
The George Washington University Center for Cyber and Homeland 
Security, please note that my comments represent my personal views and 
not necessarily any positions of the Center.
---------------------------------------------------------------------------
    Clearly, the implementation of best cybersecurity practices is 
critical to our Nation's economic security and physical safety. Our 
cyber enemies are numerous, growing, and increasingly sophisticated.
    Fortunately there is no lack of will to defend ourselves from the 
attacks these enemies launch. Unfortunately, given the scale, scope, 
and pace of cyber threats we face, our cybersecurity measures writ 
large tend to lag behind the said attacks.
    In light of those threats, I firmly believe that promoting and 
incentivizing the use of cybersecurity best practices and effective 
technologies, policies, and procedures are critical to our Nation's 
security. I also firmly believe that the private sector is ready and 
willing to adopt those best practices, technologies, policies, and 
procedures. Its challenge, however, is determining which of those items 
are in fact ``the best'' or even ``quite good.''
    Moreover, we should all acknowledge that the private sector will 
see all of its cybersecurity decisions second-guessed in the tsunami of 
litigation that inevitably follows any cyber attack. Thus, programs 
that help companies determine which cybersecurity measures to adopt and 
will help them minimize their exposure to unnecessarily expensive and 
protracted litigation are desperately needed.
    Thankfully, a program already exists in the United States Code that 
in fact does promote and incentivize the use of cybersecurity best 
practices, technologies, policies, and procedures: The ``SAFETY Act.''
    The SAFETY Act, which stands for the Support Anti-Terrorism By 
Fostering Effective Technologies, was enacted in 2002 as part of the 
Homeland Security Act. The SAFETY Act is one of the most responsibly 
designed and effectively implemented liability management programs in 
Government today. More importantly, it can and already has been used to 
promote improved cybersecurity, and, with the leadership of this 
committee, that success can be expanded.
    In my testimony below, I will go into greater detail as to how the 
SAFETY Act can currently be used promote the increased use of 
cybersecurity practices as well as effective technologies, procedures, 
and policies. I will also explain why I believe that some very minor 
statutory tweaks to the SAFETY Act would be exceptionally helpful in 
expanding its use in the private sector. Finally, I will also provide 
some examples of how the SAFETY Act could be tied to innovative ideas 
that will, in general, promote improved cybersecurity.
 important clarification regarding the scope of this written testimony
    I believe at the outset that it is exceptionally important to 
establish what I will NOT be promoting in my testimony. I want there to 
be no misunderstanding with respect to what actions I believe Congress 
or the Executive branch should be undertaking in order to allow the 
SAFETY Act to reach its full potential with respect to cybersecurity.
    Specifically, my testimony:
  <bullet> Will NOT advocate for an expansion of the scope of the 
        liability protections offered by the SAFETY Act. The SAFETY 
        Act, as currently drafted, provides to the Department of 
        Homeland Security (DHS) all of the legal authority needed to 
        encourage the wide-spread deployment of effective and useful 
        cybersecurity technologies, policies, and procedures;
  <bullet> Will NOT advocate for an expansion of the types of unlawful 
        events that may trigger the liability protections offered by 
        the SAFETY Act. Again, as currently drafted, the SAFETY Act 
        gives the Secretary of Homeland Security broad discretion to 
        decide which unlawful acts that cause harm to U.S. persons, 
        property, or economic interests can trigger its liability 
        protections;
  <bullet> Will NOT seek to revise or reinterpret the intent of the 
        Members of the 107th Congress, who drafted and voted to enact 
        the SAFETY Act;
  <bullet> Will NOT advocate for the ability of the private sector to 
        excuse itself completely from liability following a cyber 
        attack, much less disincentivize the private sector from 
        continually investing in and upgrading its cyber defenses; and
  <bullet> Will NOT seek to undermine the ability of DHS to thoroughly 
        review applications for SAFETY Act liability protections or 
        require a dramatic expansion in the size or cost of the Office 
        of SAFETY Act Implementation (OSAI), such that the program 
        office will become unwieldy or unnecessarily costly.
    Instead, my testimony will advocate for a very simple proposition: 
That with the addition of a few well-placed words, it will become 
perfectly clear to the private sector that the SAFETY Act applies to 
cybersecurity practices, technologies, procedures, and policies. 
Moreover, these minor tweaks will permanently clarify that the SAFETY 
Act applies to cyber attacks committed by a variety of actors, as well 
as attacks where attribution is unclear or impossible.
  the safety act as drafted applies to cybersecurity technologies and 
                             cyber attacks
    A critical point that must be established immediately is that both 
the SAFETY Act statute (see 6 U.S.C.  441-444) and the implementing 
Final Rule (see 6 CFR  25) establish that cyber attacks can trigger 
the law's liability protections and that information technologies 
(including cybersecurity systems and services) are eligible to receive 
SAFETY Act liability protections. By way of review, please note that 
the SAFETY Act provides extensive liability protections to entities 
that are awarded either a ``Designation'' or a ``Certification'' as a 
Qualified Anti-Terrorism Technology (QATT). Under a ``Designation'' 
award, successful SAFETY Act applications are entitled to a variety of 
liability protections, including:
  <bullet> All terrorism-related liability claims must be litigated in 
        Federal court;
  <bullet> Punitive damages and pre-judgment interest awards are 
        barred;
  <bullet> Compensatory damages are capped at an amount agreed to by 
        both DHS and the applicant;
  <bullet> That damage cap will be equal to a set amount of insurance 
        the applicant must carry, and once that insurance cap is 
        reached no further damages may be awarded in a given year;
  <bullet> A bar on joint and several liability; and
  <bullet> Damages awarded to plaintiffs will be offset by any 
        collateral recoveries they receive (e.g., victims compensation 
        funds, life insurance, etc.)
    Should the applicant be awarded a ``Certification'' under the 
SAFETY Act for their QATT, all of the liability protections awarded 
under a ``Designation'' are available. In addition, the Seller of a 
QATT will be entitled to an immediate presumption of dismissal of all 
third-party liability claims arising out of, or related to, the act of 
terrorism.
    The only way this presumption of immunity can be overcome is to 
demonstrate that the application contained information that was 
submitted through fraud or willful misconduct. Absent such a showing, 
the cyber attack-related claims against the defendant will be 
immediately dismissed.
    Additionally, when a company buys or otherwise uses a QATT that has 
been either SAFETY Act ``Designated'' or ``Certified,'' that customer 
is entitled to immediate dismissal of claims associated with the use of 
the approved technology or service and arising out of, related to, or 
resulting from a declared act of terrorism.
    As the SAFETY Act is currently drafted, in order for its 
protections to be triggered, the Secretary of Homeland Security must 
declare that an ``act of terrorism'' has occurred. The definition of an 
``act of terrorism'' is extremely broad and includes any act that:
    (i) is unlawful;
    (ii) causes harm to a person, property, or entity, in the United 
        States, or in the case of a domestic United States air carrier 
        or a United States-flag vessel (or a vessel based principally 
        in the United States on which United States income tax is paid 
        and whose insurance coverage is subject to regulation in the 
        United States), in or outside the United States; and
    (iii) uses or attempts to use instrumentalities, weapons, or other 
        methods designed or intended to cause mass destruction, injury, 
        or other loss to citizens or institutions of the United States.
    The Secretary has broad discretion to declare that an event is an 
``act of terrorism,'' and once that has been declared, the SAFETY Act 
statutory protections will be available to the Seller of the QATT and 
others.
    Critically, nothing in the SAFETY Act statute or Final Rule 
requires that there be a finding of a ``terrorist'' intent in order for 
the Secretary to declare that an ``act of terrorism'' occurred. Indeed, 
the only discussion of ``intent'' when defining an ``act of terrorism'' 
comes in the third part. There, all Congress drafted was that the 
attack must have used a weapon or other instrumentality ``intended'' to 
cause some form of injury.
    Congress had every opportunity to explicitly or implicitly limit 
qualifying ``acts of terrorism'' to politically, religiously, or other 
ideologically motivated actions by specifically-defined groups or 
persons. It chose not to do so, instead stating that, for purposes of 
the SAFETY Act, an ``act of terrorism'' was simply an intentional 
unlawful act intended to cause harm to U.S. persons, property, or 
economic interests.
    It can only follow then that the SAFETY Act statute can (and is) 
interpreted to include cyber attacks as an act that can be considered 
an ``act of terrorism'' and may serve as a trigger for the protections 
of the SAFETY Act.
    Further, it is vital to note that the SAFETY Act Final Rule 
includes cybersecurity products and services in its definition of 
``Qualified Anti-Terrorism Technologies,'' or ``QATT,'' or technologies 
that are eligible to receive SAFETY Act protections.
    This point is readily demonstrated by the fact that DHS, through 
its Office of SAFETY Act Implementation, has already approved a number 
of cybersecurity products and services. By that measure alone, we know 
that the SAFETY Act applies to a variety of cybersecurity products and 
services.
    Still, it is important to understand the statutory and regulatory 
basis for the coverage of cybersecurity products and services under the 
SAFETY Act.
    We can start with the SAFETY Act itself, specifically in 6 USC  
444(1), defines a ``Qualified anti-terrorism technology'' as follows:

``For purposes of this part, the term ``qualified anti-terrorism 
technology'' means any product, equipment, service (including support 
services), device, or technology (including information technology) 
designed, developed, modified, or procured for the specific purpose of 
preventing, detecting, identifying, or deterring acts of terrorism or 
limiting the harm such acts might otherwise cause, that is designated 
as such by the Secretary.'' (emphasis added).

    Note that this definition specifically covers ``information 
technology'' and, further, that the only characteristic needed by any 
product, equipment, service, device, or technology in order to be 
considered as a QATT is that the item ``is designed, developed, 
modified, or procured for the specific purpose of preventing, 
detecting, identifying, or deterring acts of terrorism or limiting the 
harm such acts might otherwise cause.''
    Thus, by its explicit terms, information technologies--a term that 
includes cybersecurity products and services--are eligible to be 
considered as a QATT under the SAFETY Act.
    We should also consider the QATT definition set forth in 6 CFR Part 
25.2, which reads as follows:

``Qualified Anti-Terrorism Technology or QATT--The term `Qualified 
Anti-Terrorism Technology' or `QATT' means any Technology (including 
information technology) designed, developed, modified, procured, or 
sold for the purpose of preventing, detecting, identifying, or 
deterring acts of terrorism or limiting the harm such acts might 
otherwise cause, for which a Designation has been issued pursuant to 
this part.'' (emphasis added).

    DHS also explicitly refers to information technologies when 
defining Qualified Anti-Terrorism Technologies and also links 
``information technologies'' to any Technology designed, etc. to combat 
an ``act of terrorism.''
    Therefore, any Technology designed, developed, modified, procured, 
or sold for the purpose of preventing, detecting, identifying, or 
deterring ``acts of terrorism'' will be eligible to be defined as a 
QATT. That includes cybersecurity products and services.
    I would also refer the committee to the SAFETY Act Final Rule's 
definition of ``Technology,'' which is as follows:

``Technology--The term `Technology' means any product, equipment, 
service (including support services), device, or technology (including 
information technology) or any combination of the foregoing. Design 
services, consulting services, engineering services, software 
development services, software integration services, threat 
assessments, vulnerability studies, and other analyses relevant to 
homeland security may be deemed a Technology under this part.'' 
(emphasis added).

    Please note that here again DHS specifically used the term 
``information technology,'' once again establishing that cybersecurity 
products, equipment, or services will be considered a ``Technology'' 
for purposes of the SAFETY Act.
    Please note too that when elaborating on the types of ``design 
services'' that may be considered a ``Technology'' (a definition that 
includes various types of software development and support services), 
DHS stated that ``analyses relevant to homeland security may be deemed 
a Technology under this part.'' See 26 CFR Part 25.2.
    The use of the general term ``homeland security'' is of great 
import to this hearing. As this committee is well aware, DHS's 
``homeland security'' mission is an ``all hazards'' one, which includes 
protecting against cyber threats in all forms. Indeed, in recent years 
the cybersecurity mission--whether related to terrorist groups, nation-
states, organized crime, individuals, or others--has become a primary 
mission area for DHS. It follows then that when DHS defined 
``Technologies'' for SAFETY Act purposes to include software services 
related to ``homeland security,'' it intended that term to encompass 
cyber attacks in their myriad of forms.
    In summary, then, there is no question that cyber attacks, 
regardless of who conducted them or why, and cybersecurity products and 
services are eligible to receive SAFETY Act protections under the plain 
language of the SAFETY Act statute and the Final Rule as originally 
drafted.
the nation would benefit if congress were to amend the safety act in a 
way that makes its coverage of cyber attacks cybersecurity technologies 
                           even more explicit
    Despite the fact that the SAFETY Act, as already drafted, 
encompasses both cybersecurity products and services and cyber attacks 
unconnected to specific ``terrorist'' groups or motivations, too many 
people are unsure of whether the SAFETY Act applies to exactly those 
items and situations. In short, the only way to rectify the situation 
is for Congress to slightly amend the SAFETY Act to make explicit its 
coverage of cyber attacks and cybersecurity products and services.
    Thankfully, the path and process for clearing up the SAFETY Act's 
application in the cyber context has already been blazed, and all this 
committee and the House of Representatives need to do is retrace its 
steps.
    In the 113th Congress, Members of this committee, including 
Chairman McCaul, Ranking Member Thompson, Representative Meehan, and 
Representative Clarke introduced the National Cybersecurity and 
Critical Infrastructure Protection Act (NCCIP).
    Section 202 of the NCCIP would have slightly altered the SAFETY Act 
by essentially adding two new terms to the existing law: ``Cyber 
incident'' and ``cybersecurity technologies.'' These new terms would be 
inserted after the words ``act of terrorism'' and ``anti-terrorism 
technologies,'' respectively, in the existing SAFETY Act law.
    The purpose of these new terms was simple and straightforward: Make 
it 100% clear to potential users of the SAFETY Act that the law applies 
to cybersecurity products and services as well as to cyber attacks that 
one might not colloquially put in the same category as the terrible 
events of Sept. 11, 2001 or the Boston Marathon bombings.
    These changes were apparently not controversial to this committee 
or this Chamber, as H.R. 3696 passed the House by unanimous voice vote. 
Unfortunately, due to timing issues that prevented the resolution of 
some concerns by a few Senators, Section 202 was not included when the 
final version of H.R. 3696 passed the Senate and was signed into law. 
Still, I remind this committee again that Section 202 was passed 
unanimously by the House, and so this committee should pass the SAFETY 
Act clarifying language once again.
    This clarification continues to be absolutely vital for a variety 
of reasons. First, I can state without qualification to this committee 
that the vast majority of eligible SAFETY Act applicants do not realize 
after reading its statutory language that the SAFETY Act covers non-
``terrorist''-related cyber attacks or even cybersecurity products and 
services in general.
    Rather, most people who are not steeped in the nuances and history 
of the SAFETY Act simply see the words ``act of terrorism'' and 
``Qualified Anti-Terrorism Technologies'' and think only in terms of 
al-Qaeda, ISIS, right-wing militias, and the like.
    The statute or Final Rule evidences no such limitations, and, 
further, there is no legislative history that I am aware of that would 
definitively limit the application of the SAFETY Act to such groups, 
their actions, or items designed to deter, defeat, or combat them.
    Inclusion of Section 202 language would eliminate that confusion. 
All parties would now be fully on notice of the application of the 
SAFETY Act to cyber incidents and cybersecurity technologies, thus 
allowing everyone to get on to the business of deciding whether the 
SAFETY Act is right for them or if the product or service merits the 
liability protections it offers.
    Second, inserting the term ``cyber incident'' would be of great 
value to the Executive branch, particularly the Secretary of Homeland 
Security. Under the SAFETY Act, the decision to declare an incident an 
``act of terrorism'' is assigned to the Secretary of Homeland Security. 
Thus she or he is the person who decides whether a company that holds a 
SAFETY Act award may actually assert the defense in Federal court. 
Without that designation, the defenses of the SAFETY Act are not 
available under the law to the SAFETY Act awardee.
    As the past few years have demonstrated, the decision of Executive 
branch members to declare a particular event an act of terrorism in any 
context is a difficult one. From the shootings at Fort Hood to the 
cyber attack on Sony Pictures, and even to the recent cyber attack on 
the U.S. Office of Personnel Management, the Executive branch treads 
very cautiously when deciding how to describe an incident. Creative 
terms such as ``workplace violence'', ``cyber vandalism'', or even 
references to a general ``security breach'' are used instead of the 
``T'' word.
    I offer no opinions on the terms used by the Executive branch in 
those incidents, yet I would dare say we all agree that there is no 
disagreement on their impact on American lives and our economy. Lives 
were lost, businesses were crippled, and Government programs have been 
crippled for years to come. It is those outcomes--or more specifically 
preventing or mitigating them--that Congress was focused on when it 
passed the SAFETY Act in 2002.
    That is why adding the term ``cyber incident'' as defined in 
Section 202 of NCCIP is a vital tool to give to the Homeland Security 
Secretary. The Secretary should have the same flexibility to 
acknowledge the seriousness of a given incident, and, in the case of 
the SAFETY Act, trigger specific liability protections, without having 
to utilize a term that may cause a larger than necessary impact. 
Section 202 thus represents a simple tool with which to wield the 
SAFETY Act with greater delicacy.
    Finally, I must emphasize that the language of Section 202 only 
clarifies the SAFETY Act and is entirely consistent with the original 
intent of the law. Section 202 does not expand the SAFETY Act, as have 
argued.
    When one looks back at the creation, implementation, and use of the 
SAFETY Act, it has always been clear that the purpose of the law has 
been to promote the use by the private sector of useful and effective 
security products and services in order to deter or mitigate massively 
damaging unlawful events.
    The SAFETY Act was designed to help mitigate those events by 
providing the possibility of limited liability protections following 
the unlawful ``act of terrorism.'' These liability protections were 
deemed needed because of concerns about potentially endless litigation 
following a major attack.
    Time has borne out those concerns. The attacks of 9/11 spurred 
litigation that lasted more than a decade and whose costs ran well into 
the hundreds of millions of dollars. Similar litigation arising out of 
the 1993 World Trade Center attack also lasted for more than a decade, 
and now every new terrorist incident spurs numerous new lawsuits.
    Cyber attacks are no different. High-profile attacks spur multiple 
lawsuits, and indeed the cost of managing litigation post-cyber attack 
is beginning to represent one of the most expensive consequences of a 
cyber attack. Considering that millions of cyber attacks occur daily, 
and that these attacks are growing more sophisticated and successful 
with each passing moment, liability protections for cybersecurity 
vendors and users are absolutely critical.
    This is especially true given that many of these attacks are 
conducted by foreign governments and are essentially unstoppable by the 
private sector. That fact will not deter plaintiffs' counsel, however, 
and so no matter how good a product is or how much is invested in 
defensive programs, companies will still face massive litigation. That 
trend cannot continue, and so it is only proper to use the SAFETY Act 
as originally intended to control that outrageous trend.
    In summary then, clarifying--but not amending--the SAFETY Act so 
that it explicitly covers cyber incidents and cybersecurity 
technologies is not only appropriate given the seriousness of the cyber 
threat. It is also appropriate given the general misunderstanding of 
how the SAFETY Act works and the need to provide flexibility to the 
Homeland Security Secretary when determining whether to let the 
protections of the SAFETY Act be applied.
                optimizing use of a clarified safety act
    Clarifying the SAFETY Act so that it clearly applies to non-
``terrorist'' cyber attacks and cybersecurity products and services 
will have multiple benefits. Please allow me to highlight two examples 
of improved cybersecurity this committee would likely support that 
would benefit from a clarified SAFETY Act.
(1) ``Cyber Risk Groups''
    One challenge facing private-sector companies when implementing 
cyber defenses is how to effectively cooperate with other companies to 
protect themselves and best use their limited resources. Particularly 
using a clarified SAFETY Act, companies could use risk-pooling 
mechanisms to increase their defenses and better mitigate risk.
    Risk-pooling mechanisms come in a number of forms, including ``risk 
purchasing'' and ``risk retention'' groups. Those groups allow 
collections of companies (usually similarly situated in terms of 
industry sector) to jointly purchase or create insurance coverage that 
would otherwise be unavailable or excessively expensive.
    Here's how it can work:
    1. A group of similarly-situated companies agree to form a risk 
        purchasing or retention group in order to obtain cybersecurity 
        insurance.
    2. The companies agree to use certain security standards or 
        technologies (for instance SANS 20 controls, ``detonation 
        chambers,'' information sharing via dedicated ``private 
        clouds,'' the recent National Institutes of Standards and 
        Technologies voluntary cybersecurity framework, etc.)
    3. The companies then pool their resources to either jointly 
        purchase an existing cyber insurance policy or to create a pool 
        of insurance that they would maintain.
    4. The risk group also agrees to pursue SAFETY Act protections for 
        the standards it has created and committed to adhering to.
    5. As part of the agreement, any company that fails to adhere to 
        the security standards will be asked to leave the group at the 
        next renewal period.
    Using a clarified SAFETY Act on top of the insurance pool 
effectively limits the exposure of the group to the amount of insurance 
they have purchased, or even a portion thereof.
    Further, this arrangement also potentially allows more of the 
insurance funds to be used for losses the company has directly suffered 
(damaged equipment, lost data, business interruption, etc.) rather than 
losses suffered by third parties.
    The pool arrangement allows companies to collaborate and establish 
a baseline of security that each would commit to maintaining, all of 
which fall under the umbrella of a review by DHS. None of this would be 
possible without a clarified SAFETY Act.
    I would add the pooling/risk purchasing agreement would be of 
particular value to small businesses or ones that serve historically 
underserved communities. For instance, cooperatives that provide 
utility services would benefit greatly from this arrangement as it 
would allow them to provide broader cybersecurity at reasonable costs 
to their members. Considering that their members are in historically 
underserved communities, this would be an excellent public benefit 
every member of this committee could support.
(2) ``Cyber HMOs''
    A challenge this committee and others have faced is how to use 
cyber insurance to promote best cybersecurity practices. That problem 
remains unsolved, but I contend a clarified SAFETY Act can help the 
Nation better utilize insurance solutions.
    First, I start with the proposition that cyber attacks are a 
constant threat, much more akin to medical claims than property or 
casualty claims. We know they will occur on a regular basis, and so 
insurers need to establish an infrastructure that supports constant 
care over a lifetime.
    Following on the health care analogy, cyber insurers should view 
their policies through the lens of a health insurance model and not a 
general liability or casualty policy. In my mind, it follows then that 
cyber insurers should develop cyber policies using a ``HMO'' model.
    Under that model, the insurer's goal will be to promote the 
``right'' kinds of claims--ones that encourage healthy behavior. Yet 
even with the incentivizing of healthy behavior, inevitably some sort 
of disease will work its way into the blood stream. The cyber HMO model 
works well here too as it will support interventional care that 
prevents minor scratches from developing into a serious infection.
    A best-case scenario would work out this way: A ``cyber HMO'' is 
established, which companies can gain access to by paying monthly 
premiums along with associated ``co-pays,'' ``deductibles,'' and 
similar expenses typically associated with a health insurance plan.
    That cyber HMO plan would give the insured access to a vast network 
of cybersecurity vendors and professionals at discounted rates that 
could be called upon in the event of a problem (the ``co-pays'' and 
``co-insurance'' equivalents).
    The cyber HMO plans would also provide low-cost or even free access 
to basic ``cyber hygiene'' care, such routine diagnostic examination of 
information technology systems, perimeter defense systems, and other 
basic defense systems (the ``annual physical'' and ``low-cost or free 
vaccine'' equivalents).
    More ``advanced'' defense systems could be subject to a higher co-
pay and deductible, and companies could even chose to go ``out of 
network'' if they want, but they would have to shoulder more of the 
cost.
    The clarified SAFETY Act would help here, too, by helping decide 
whether a cybersecurity product or service should be ``covered'' under 
this insurance model. By encouraging the use of products or services 
vetted by DHS through the SAFETY Act, the HMO and its policyholders 
would have greater confidence in the tools they are using to promote 
cyber health.
    The ``cyber HMO'' is one that actively rewards healthy cyber 
behavior--a Gordian knot that no carrier has been able to untie yet 
using traditional insurance models. That's a critical piece of the 
cybersecurity puzzle, as the challenge has been how to get companies to 
engage in effective cybersecurity, rather than any form of 
cybersecurity.
                               conclusion
    Thank you for the opportunity to testify before the committee 
today. I will be happy to answer any questions you might have.

    Mr. Ratcliffe. Thank you, Mr. Finch.
    The Chair now recognizes Mr. Biagini for 5 minutes for his 
opening statement.

STATEMENT OF RAYMOND B. BIAGINI, PARTNER, COVINGTON AND BURLING

    Mr. Biagini. I thank you, Mr. Chairman. Thanks for having 
me here. I thank the Members of the committee for this 
opportunity. Indeed, it's a privilege to speak with you about 
the possible expansion of the SAFETY Act to cover qualifying 
cyber incidents.
    Let me address in short what I see as the key questions for 
this committee's consideration.
    First, are liability protections needed to incentivize 
companies to enhance their own cybersecurity systems and to 
incentivize providers of cyber solutions to design more 
effective technologies? I believe the answer is yes.
    In short, we face a potentially devastating existential 
cybersecurity threat. As I outline in my written remarks, the 
magnitude of this threat cannot be overstated. The 9/11 
Commission authors likened a cyber attack on U.S. critical 
infrastructure to the terrorist threat before September 11, 
calling the cyber domain as the battlefield of the future.
    Those distinguished authors of the Commission report 
recommended legislation to incentivize the design and 
deployment of cybersecurity. We only have to look at the recent 
hack at OPM to confirm that the cyber wolf is knocking at our 
critical-infrastructure door.
    There is also a sense that corporations are moving too 
slowly to upgrade and enhance their own cybersecurity within 
their corporate walls.
    Regarding cyber insurance, carriers often lack the data 
they need to quantify losses from cyber attacks. When they do 
write cyber insurance, it often has large deductibles, 
inadequate limits, and exclusions for attacks by nation-states. 
This is particularly concerning for companies involved in 
cybersecurity in the critical infrastructure arenas of health 
care, financial, electrical, and energy.
    The laudable efforts by NIST to get companies to 
participate in the basic cyber hygiene program may be 
progressing too slowly. So I believe the enormity of the risk, 
coupled with the slowness of corporations' self-policing, and 
with some softness in the insurance markets, a surgical, 
legislative, incentivizing solution is appropriate.
    But the second question is: Why turn to the SAFETY Act as a 
vehicle to be used for this incentivizing approach?
    I have had the fortunate experience over the past 13 years 
to not only witness but to play an active role in the 
significant evolution of the SAFETY Act, as itself a truly best 
practice among homeland security companies big and small. The 
SAFETY Act has, in fact, stimulated companies to do cutting-
edge research, design, development, and deployment of anti-
terror technology and to incur the end-users to buy and deploy 
SAFETY Act technologies.
    From the very beginning of the act, small companies have 
benefited. The first recipient of SAFETY Act coverage was a 
small company, Michael Stapleton Associates, who got SAFETY Act 
coverage for their anti-terror training regimen for bomb-
sniffing dogs.
    Fast-forward to today. DHS is granting SAFETY Act coverage 
to the likes of the Port Authority of New York and New Jersey 
for a complement of highly sophisticated anti-terror 
technologies to protect the new Freedom Tower. They have 
provided SAFETY Act coverage to the Kentucky International 
Airport and its cybersecurity programs and to a small and 
growing number of cybersecurity companies providing 
vulnerability assessments and resiliency testing of cyber 
networks.
    The SAFETY Act Office has shown that they can expedite 
coverage when deployments are subject to Federal contracts and 
give great weight to technologies that have preexisting 
positive track records in the Federal or military space.
    In short, the SAFETY Act and its implementers have shown a 
demonstrable ability to evolve and address emerging 
technologies of increasing complexity. Properly resourced, I 
believe they can do so in the SAFETY Act if it is expanded 
through this amendment.
    I want to mention that I know--that, indeed, the SAFETY Act 
is helping to improve the technology that is out there, and 
here is why. Every day, almost every week, I get approached by 
companies that would like to pursue SAFETY Act coverage, and 
many, many times I tell them they are not ready. They are not 
ready for SAFETY Act coverage at this time, because they don't 
have the bona fides yet. They may not have had sufficient 
testing done or self-evaluation of their technologies. They may 
not have done important hazards analysis or risk analysis. They 
may not have done the operational and training manuals that the 
SAFETY Act Office will require them to have.
    Many, many times, those same applicants come back around 
about 2 months later or 3 months, and they have the bona fides, 
and they have improved their technology, and now they are ready 
to seek SAFETY Act coverage. So, in this sense, the SAFETY Act 
has, indeed, acted as a gatekeeper.
    The last point I would like to make, Mr. Chairman, is that, 
as you mentioned, oftentimes the SAFETY Act--amending the 
SAFETY Act to cover cyber attacks. Cyber attacks cannot often 
be attributed to terrorists. It just makes sense to amend the 
SAFETY Act, because cyber attackers, by nature and often 
deliberately, do not leave behind the ``whodunnit'' signature 
that terrorists crave, in fact proclaim, after they commit a 
horrific attack. The amendment here properly focuses on the 
``what,'' did the cyber attack cause material damage severely 
affecting the United States, not on the ``who,'' in terms of 
whether it was a terrorist or not.
    I believe that the cause here is worthy, the circumstances 
are sufficiently compelling, and I believe the results will be 
salutary.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Biagini follows:]
                Prepared Statement of Raymond B. Biagini
                             July 28, 2015
    Good afternoon. Thank you, Chairman Ratcliffe, and the Members of 
this subcommittee, for the opportunity--indeed privilege--to speak with 
you today about this important topic of potentially expanding the U.S. 
SAFETY Act to provide needed liability protections arising out of 
``qualifying cyber incidents,'' as that term is described in the 
proposed amendment. I support the proposed approach.
    I have a particularly keen interest in this topic, and note that I 
have always been hesitant to engage in activities that might lead to 
the amendment of the SAFETY Act, because I am the original author of 
the core liability protection provision of the SAFETY Act. I wrote that 
provision in June 2002 at the request of some of our law firm's 
homeland security contractor clients. Together, we examined the legal 
landscape and homeland security marketplace immediately following the 
horrific attacks of 9/11 and quickly recognized the need for new 
legislation to address key public policy needs:
  <bullet> To stimulate companies, large and small, to research, 
        design, develop, and deploy cutting-edge anti-terror technology 
        without fear of enterprise-threatening liability suits.
  <bullet> To stimulate the terror insurance market which had stopped 
        providing terror coverage after the 9/11 attacks.
  <bullet> To enhance homeland security in the United States and 
        abroad.
    Guided by these policy considerations, I drafted in June 2002 the 
``Certification'' section (now Section 863(d)(1), (2), and (3)) of what 
became the U.S. SAFETY Act, passed by Congress in November 2002 as part 
of the Homeland Security Act. In short, the SAFETY Act is landmark 
legislation, eliminating or minimizing tort liability for sellers or 
providers of anti-terror technology (``ATT'') approved by U.S. 
Department of Homeland Security (``DHS'') should suits arise in the 
United States after an act of terrorism.
    As described more fully below, DHS has awarded SAFETY Act coverage 
for hundreds of cutting-edge anti-terror products and services since 
its inception in 2002, thereby satisfying many of the policy concerns 
described above. In fact, in many respects, the SAFETY Act has become a 
homeland security industry ``best practice'' risk management technique, 
spurring companies, including small businesses, to research, design, 
develop, and deploy anti-terror technology to protect America without 
fear of ``enterprise-threatening'' tort liability should there be 
another 9/11 terror incident. But given the remarkably rapid expansion 
over the past several years of increasingly penetrating cyber attacks 
on key sections of the American economy and Government infrastructure, 
it is time to thoughtfully consider a surgical upgrade of the SAFETY 
Act so that that law can ``catch up'' to the realities of the cyber 
threat we now face. In short, the proposed legislation recognizes a 
fundamental principle: The ``trigger'' of liability protections for a 
``qualifying cyber attack'' should turn not on the identity of the 
attacker, i.e., is he or she a terrorist, but on the severity of the 
attack on critical U.S. interests. Moreover, this amendment will begin 
to requite the public policy concerns that existed in 2002 and exist 
today--the need to incentivize companies to further develop cutting-
edge cyber solutions and to upgrade and enhance their cybersecurity 
systems; and the need to stimulate the availability of cyber insurance, 
particularly for key high-value cyber targets in the energy, aviation, 
electrical, and health care industries. These public policy and 
marketplace dynamics auger for thoughtful consideration of this 
proposed legislation.
                   a. key features of the safety act
1. Liability Protections
    Should a company obtain SAFETY Act tort protection from DHS, these 
protections fall into one of two categories:

``Certification--the highest form of protection--creates a presumption 
that the seller of ATT is immediately dismissed from suit unless clear 
and convincing evidence exists that the seller acted fraudulently or 
with willful misconduct in submitting data to DHS during the 
application process. Certification coverage also eliminates punitive 
damages claims; requires that any suit after an act of terrorism be 
filed in Federal court; and caps the awardee's liability, usually at 
its terror insurance limits.''

    Certification coverage is usually awarded by DHS when the 
applicant's technology has been widely deployed and has a track record 
of ``proven effectiveness.''
    The lesser form of SAFETY Act coverage is known as ``Designation'' 
coverage and is usually provided when the anti-terror technology has 
limited actual deployment in the field:

``Designation--provides all of the protections under Certification 
coverage except the presumption of dismissal.''

    Importantly, certification and designation protections apply ``up 
and down'' the supply chain, i.e., the awardee's subcontractors, 
vendors, and distributors ``derivatively'' obtain the same SAFETY Act 
tort protections as the awardee. But most important, those that buy or 
deploy SAFETY Act-approved technology--whether they are commercial or 
Government customers--also are protected derivatively from tort 
liability arising out of an act of terror.

2. Limits on the Liability Protections
    The SAFETY Act's liability protections are triggered only if DHS's 
Secretary designates a particular incident an ``act of terrorism'' 
under the SAFETY Act. ``Act of terrorism'' is defined as an unlawful 
act causing harm to a person, property, or entity in the United States, 
using or attempting to use instrumentalities, weapons, or other methods 
designed or intended to cause mass destruction, injury or other loss to 
citizens or instrumentalities of the United States. The Secretary of 
DHS will determine on a case-by-case basis whether a particular 
terrorist attack is covered under the SAFETY Act. This threshold 
statutory requirement to first designate a particular attack as an 
``act of terrorism'' under the SAFETY Act before the liability 
protections are applicable is an obvious limitation that may not be 
necessary or appropriated in considering whether to expand the SAFETY 
Act to ``qualifying cyber incidents.''
    The SAFETY Act can also apply ``extraterritorially,'' i.e., even if 
the act of terror occurs outside the United States, the SAFETY Act can 
apply to suits filed in the United States so long as the ``harm,'' to 
include financial harm, is suffered by U.S. persons, property, 
instrumentalities, or entities. And SAFETY Act protections can also 
apply ``retroactively'' to cover anti-terror technologies that an 
applicant has already deployed and which are substantially equivalent 
to those technologies for which it has obtained coverage.
    The SAFETY Act defines ``loss'' as death, injury, or property 
damage, including business interruption loss. The definition of ``anti-
terror technologies'' includes ``any product, equipment, service 
(including support services), device, or technology (including 
information technology)'' which has a material anti-terror purpose.
    Finally, in order to obtain the tort liability protections, an 
applicant for SAFETY Act coverage must carry terror insurance which 
will respond to third-party tort liability suits arising out of a 
covered act of terrorism. The cost of the insurance cannot unreasonably 
distort the pricing of the anti-terror technology. The terror coverage 
limits usually become the applicant's ultimate ``cap'' on liability. In 
practice, if an applicant does not have terror coverage, the SAFETY Act 
Office will work with the applicant to find terror coverage at a price 
that the applicant can afford.
              b. the safety act as implemented since 2002
    Over the past 13 years, particularly in the last 7-8 years, DHS has 
vigorously implemented the SAFETY Act, providing coverage to hundreds 
of companies--from small businesses to some of the largest corporations 
in the world--for the anti-terror products or services they provide in 
the United States and abroad. In fact, the first SAFETY Act award went 
to a small company, Michael Stapleton Associates, for its bomb-sniffing 
dog training regimen, its X-ray screening, and bomb detection system.
    Representative SAFETY Act awards over the past 13 years include 
coverage for:
  <bullet> threat and vulnerability assessment protocols;
  <bullet> airport baggage handling systems;
  <bullet> biometrically-secured airport identification and access 
        system under the Registered Traveler Program;
  <bullet> perimeter intrusion detection systems;
  <bullet> cargo inspection systems deployed at ports and borders;
  <bullet> physical security guard services;
  <bullet> secure broadband wireless communications infrastructure and 
        command-and-control systems;
  <bullet> lamp-based infrared countermeasure missile-jamming systems;
  <bullet> anti-IED jamming systems.
    In some of these cases, the SAFETY Act Office was able to 
``expedite'' its review and award of coverage by giving weight to the 
fact that these anti-terror products and services had proven 
effectiveness through long-term deployments with Federal and military 
customers.
    Importantly, DHS has also awarded SAFETY Act coverage to private 
and quasi-Governmental entities for their security protocols, 
procedures, and policies used to determine the nature and scope of 
security they deploy to protect their own facilities and assets. 
Specifically,
  <bullet> a major chemical company obtained coverage for its facility 
        security services, including its vulnerability assessments, 
        cybersecurity, emergency preparedness and response services, 
        and its perimeter security, at its facilities that were 
        governed by the Maritime Transportation Security Act;
  <bullet> the Cincinnati/Northern Kentucky Airport obtained coverage 
        for its security management plan, its operations and training 
        procedures for its airport police, rescue, and firefighting 
        personnel, its emergency operations center, and airport 
        security plans;
  <bullet> the New York/New Jersey Port Authority obtained coverage for 
        the security assessments and design/architectural engineering 
        services incorporating security-related design features at the 
        New Freedom Tower and World Trade Center site;
  <bullet> the NFL obtained coverage for the stadium security standards 
        and compliance auditing program;
  <bullet> three large professional sports venues obtained coverage for 
        their security practices and protocols;
  <bullet> the New York Stock Exchange Security System obtained 
        coverage for its command-and-control and integration of a 
        multi-layered security system.
    These significant awards, as well as the fact that the Federal 
Acquisition Regulations now require Federal agencies issuing homeland 
security solicitations to first consult with the DHS SAFETY Act Office 
to determine if expedited coverage is appropriate, have helped the 
SAFETY Act toward reaching its full potential.
c. the proposed legislation: a limited but appropriate expansion of the 
             safety act to cover qualified cyber incidents
1. Current Atmospheric Conditions
    The cyber threat to U.S. Governmental institutions and critical 
infrastructure as well as to commercial entities is increasing at an 
alarming rate. Examples include:
  <bullet> the recent hack into OPM affecting over 22 million 
        individuals, apparently by China;
  <bullet> the 2014 attack on J.P. Morgan involving cyber theft of data 
        belonging to 76 million households, likely by Russia;
  <bullet> the attack on Sony Pictures, apparently by North Korea;
  <bullet> the indictment of 5 Chinese military officials for hacking 
        proprietary data held by Westinghouse and U.S. Steel.
    Indeed, on July 22, 2014, the 9/11 Commission authors likened the 
threat of a cyber attack on U.S. critical infrastructure to the 
terrorist threat before September 11, 2001, calling ``the cyber domain 
as the battlefield of the future.'' These authors urged legislation to 
incentivize enhanced cybersecurity. Further, the United States has 
identified cyber attacks as the single greatest threat to National 
security and at the forefront of the Nation's defense and critical 
infrastructure, characterizing cyber attackers as undeterred by the 
threat ``we'll shutdown your systems'' if you attack ours.
    In addition to these policy-level concerns, market dynamics are at 
work. Many companies are slow to improve their systems to prevent or 
mitigate against an attack. Cyber insurance for key sectors of the 
economy, especially critical infrastructure, e.g., health, financial, 
can be hard to get and expensive, often containing significant 
exclusions. The U.S. goal to strengthen cybersecurity resilience by 
having industry voluntarily follow NIST guidelines is progressing 
slowly. DHS, Commerce, and Executive branch agencies have suggested 
that tort mitigation legislation may be necessary to stimulate industry 
to enhance cybersecurity and the insurance industry to increase its 
footprint in the cyber market.
2. Why Amend the SAFETY Act to Cover Non-Terror-Based ``Qualifying 
        Cyber Incident?''
    There are numerous reasons that a discriminate expansion of the 
SAFETY Act makes sense as a means to mitigate increasing cyber threats. 
The first has to do with the inherent characteristics and differences 
between a cyber versus terrorist attack. In the latter, public 
ownership and notoriety of who the perpetrator is, remains a distinct 
goal and desire of those perpetrating a terrorist attack. Also, while 
their methods of accomplishing the terror attack are usually simple and 
``low-tech,'' what matters to the terrorist is that the victims (as 
well as his competitors) know WHO committed the heinous act. By 
contrast, the cyber attacker prefers to be cloaked in secret, to act 
stealthily, not revealing highly-complex methods, sources, or 
signatures, while being able to suddenly and massively disrupt broad 
technological networks. As such, the proposed SAFETY Act amendment 
appropriately focuses on whether a qualifying cyber incident causes 
``material levels of damage'' and ``severely affects'' the United 
States, as the ``trigger'' for coverage, not on whether the attacker 
can be labeled a ``terrorist.''
    Second, over the past 13 years, pursuit of SAFETY Act coverage has 
become a ``best practice'' for companies in the homeland security 
market, which necessarily requires such companies to demonstrate 
``proven effectiveness'' of their anti-terror products or services. 
Indeed, DHS already has awarded coverage for certain cybersecurity 
solutions and technologies. DHS's focus on ``proven effectiveness'' 
will apply equally to cyber solution providers and those companies that 
are deciding on the quality and scope of their cyber threat protections 
program. As such, the SAFETY Act should have the salutary benefit of 
improving the quality of cyber technology and use, thereby hardening 
networks and enhancing the level of cybersecurity generally throughout 
the United States.
    Third, as a prerequisite to obtaining SAFETY Act protection, the 
Act has always required an applicant to maintain terror insurance 
coverage; the amendment would similarly require an applicant to 
maintain cyber insurance to obtain the protections. This combination of 
liability protections and insurance requirements spurred the terror 
insurance markets to open up and will likely have the same effect on 
cyber insurance markets, particularly in the highly-vulnerable 
aviation, health, electric, and energy critical infrastructure arenas. 
Similarly, if SAFETY Act liability protection is provided to those 
companies providing proven cyber solutions, especially to high-value 
targeted industries, the insurance markets will likely respond 
positively because of the layer of immunity and claims-elimination 
protection afforded to its insureds if they are sued after a 
``qualifying cyber incident.''
    Fourth, the procedures for obtaining SAFETY Act coverage have been 
demonstrated to be reasonably predictable and, when needed, nimble. 
These procedures include protocols for expediting or ``fast-tracking'' 
applications; modifying a coverage award when a company's technology 
has materially changed; and renewing coverage after an initial award. 
Companies who fail to update DHS with material changes to their 
technology or fail to provide the technology or service as outlined to 
DHS in obtaining SAFETY Act coverage could find themselves without 
protection should a lawsuit arise.
    That said, the challenge for the SAFETY Act Office will be to 
obtain the necessary resources and expertise to handle an increased 
number of cyber-based SAFETY Act applications and to be able to nimbly 
but meaningfully review cyber applications which inherently involve 
changing technologies and threat environments.
    Finally, the proposed legislation does not conflict with the Senate 
information-sharing and monitoring bills. These bills focus on the 
important need to enhance a specific critical activity--the sharing of 
cyber threat information between and among commercial and Governmental 
entities--by providing protection for such sharing and monitoring 
companies from liability arising out of these specific activities. The 
proposed House legislation is focused on those companies that design, 
develop, and deploy and use cyber solutions, e.g., threat and theft 
protection; vulnerability assessments; fraud and identity protection, 
etc. The House legislation is meant to incentivize a broad swath of 
providers and users of such cyber technology by providing significant 
tort protections afforded under the SAFETY Act should a ``qualifying 
cyber incident'' occur.
                               conclusion
    The proposed legislation to discriminately expand the SAFETY Act is 
reasonably calculated to address both policy-based concerns and market 
dynamics. Its emphasis on the severity and impact of the cyber attack 
and not on the identity of the attacker as the trigger for protection 
is appropriate. DHS's continued requirement that a technology--cyber or 
otherwise--have a record of ``proven effectiveness'' and the statutory 
requirement to carry cyber insurance, will likely spur higher quality 
technology and more available insurance. The challenge for the DHS 
SAFETY Act Office will be to have sufficient qualified resources who 
can conduct meaningful and timely reviews in an atmosphere of rapidly-
changing technology and threats. In the end, this amendment, like the 
original SAFETY Act, should be driven by a common spirit and intent: To 
take proactive legislative incentivizing steps now--to avoid a 
catastrophic debilitating incident involving a major critical 
infrastructure or economic sector of the United States. This proposed 
discriminate amendment of the SAFETY Act is a step in the right 
direction.

    Mrs. Watson Coleman. Mr. Chairman.
    Mr. Ratcliffe. Thank you, Mr. Biagini.
    The Chair now recognizes Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman, and thank 
you, Mr. Langevin.
    I just want to take this opportunity to acknowledge and 
welcome and thank Dr. Andrea Matwyshyn for being here today and 
being a part of this very impressive panel.
    Dr. Matwyshyn is currently the Microsoft visiting professor 
at the Center for Technology Policy at Princeton University, 
which is part of the 12th Congressional District that I am 
proud to serve.
    She is a legal academic studying technology innovation and 
its legal implications, particularly corporate information. In 
2013 to 2014, she served as a senior policy advisor and 
academic in residence at the U.S. Federal Trade Commission, 
focusing her work on corporate information security issues.
    She is a full professor of law at Northeastern University 
and a faculty affiliate of the Center for Internet and Society 
of Stanford Law School. She has had many very impressive 
appointments at many very impressive schools, from the Wharton 
School, the University of Pennsylvania, all the way to the 
Singapore Management University, Cambridge University, 
University of Oxford, and Notre Dame.
    Prior to entering academia, she was a private attorney, 
focusing her work on technology transactions. She has 
previously testified on issues of information security, and she 
is called upon and often quoted on these issues.
    We are delighted to have her today, and thank you for 
having this hearing and providing this opportunity for us to 
hear from her.
    Thank you.
    With that, I yield back.
    Mr. Ratcliffe. The gentlelady yields back. I thank the 
gentlelady for that introduction, and also glad to have you as 
part of our subcommittee today. A number of the Democratic 
Members of this subcommittee are traveling with the President 
presently overseas, so we very much appreciate you being here 
with us today.
    With that, the Chair recognizes Dr. Matwyshyn for 5 minutes 
for her opening statement.

 STATEMENT OF ANDREA M. MATWYSHYN, VISITING PROFESSOR, CENTER 
    FOR INFORMATION TECHNOLOGY POLICY, PRINCETON UNIVERSITY

    Ms. Matwyshyn. Thank you.
    Chairman Ratcliffe, Member Langevin, and other 
distinguished Members of the subcommittee, it is my great honor 
to be with you here today to discuss the topic that I have 
devoted my academic career to studying: Information security 
and the National crisis that we face in working toward making 
our Nation more secure, both in terms of our defense and in 
terms of our economy in particular.
    The SAFETY Act was passed in 2002, and, at that time, it 
undoubtedly served as a critically-stimulating impetus for the 
emergence of physical space products from entrepreneurs to 
enable our society to move toward a more secure physical 
environment. However, the SAFETY Act in 2015 is, unfortunately, 
not an optimal fit for the information security ecosystem.
    The information security ecosystem is one that is driven by 
constant, frequently overnight, innovation. As such, expanding 
or interpreting the SAFETY Act to provide liability limitation 
for product, certain products only, in the information security 
ecosystem will disrupt rather than encourage an already 
successfully burgeoning market of cutting-edge information 
security products and services.
    The market is projected to reach approximately $93 billion 
worth of information security products and services in the next 
2 years. We are seeing many successful IPOs; we are seeing 
venture capitalists investing heavily.
    Expanding or including information security within the 
SAFETY Act liability limitations will, in essence, negatively 
shift the purchasing behaviors of companies away from 
determining products based on the recommendations of their 
information security engineers and code quality toward the 
recommendations of CFOs, general counsel, and other perhaps 
less technologically-sophisticated individuals who are 
concerned about risk mitigation rather than information 
security first and foremost.
    As such, the certification period is not a fit for 
information security technologies. Instead, it is likely to 
engender a false sense of security in enterprises and may, 
unfortunately, incentivize them to, for example, fail to comply 
with the new ISO standards in information security or to obtain 
the relevant information security policies that the insurance 
industry increasingly offers, with over 50 major insurance 
companies now having robust offerings set in this space.
    The next few points I will briefly mention are elaborated 
upon more thoroughly in my written testimony.
    As I was preparing for this hearing, the availability of 
information regarding the transparency of the process of 
certification was, in my opinion, not as thorough as I would 
have hoped to be able to have an objective assessment of it. In 
particular, it is critical that any certification that provides 
the substantial benefit of a limitation of liability be driven 
by an independent, rigorous, third-party testing, including 
penetration testing and all the state-of-the-art technology 
measures that would be best suited to this kind of 
certification.
    With DHS having, unfortunately, limited capability in 
enforcement, this means that companies may be unwilling to 
correct their technologies in a timely manner when DHS even 
finds a problem. In fact, we see this behavior from companies 
in the current marketplace.
    So the expansion or inclusion of the SAFETY Act limited 
liability framework for information security products would, 
unfortunately, I believe, create disincentives to fix, timely 
patch, and well-disclose in security advisories the types of 
information that is absolutely critical to companies and to our 
agencies in defending us in a holistic approach with respect to 
the information security threats that we face.
    Context is everything, and the only way that we will 
succeed in defending our Nation and our economy is through a 
multi-lateral, coordinated approach between the public sector 
and the private sector that is sensitive to this set of moving 
pieces that need to be coordinated simultaneously.
    Finally, the expansion of this limited liability could 
impair the work of other agencies, including the FCC and the 
FTC. I have Federalism concerns, where the States, I believe, 
are the appropriate laboratories of experimentation first for 
any liability limitation approach.
    Thank you.
    [The prepared statement of Ms. Matwyshyn follows:]
               Prepared Statement of Andrea M. Matwyshyn
                             July 28, 2015
    Chairman Ratcliffe, Ranking Member Richmond, Representative 
Langevin, and other distinguished Members of the committee, it is my 
honor to be here with you today to discuss the future of information 
security in the United States and the SAFETY Act. My testimony today 
reflects cumulative knowledge I have acquired during my last 16 years 
as both a corporate attorney and academic conducting research on the 
legal regulation of information security. My testimony also reflects 
the practical business knowledge I have obtained through long-standing 
relationships with insiders at Fortune 100 technology companies, 
technology entrepreneurs, consumer rights advocates, and independent 
information security professionals. Finally, this testimony is informed 
by insights acquired during my service as the Federal Trade 
Commission's Senior Policy Advisor/Academic in Residence, advising on 
matters of information security.
    During the last decade, awareness of information security has 
dramatically increased in both the public and private sector, and State 
data security statutes have contributed significantly to this 
improvement. However, the field of information security is still in its 
early years, and the overall level of information security knowledge 
and care that currently exists in the United States is still 
inadequate. As high-profile data breaches such as the security failures 
of organizations such as OPM and Sony permeate the news, citizen 
confidence in the data stewardship capabilities of both companies and 
Government agencies is eroding. Dramatic information security 
improvements are necessary throughout both the public and private 
sector, and it is this social context that frames today's legal and 
policy conversation around the SAFETY Act.
    The SAFETY Act's primary feature--a grant of limited liability to 
companies whose products are certified by the Department of Homeland 
Security and to their customers--is a poor fit for stimulating 
improvements and incentivizing adherence to best practices in 
information security. SAFETY Act certifications for information 
security products are not likely to lead to improved information 
security in either the public or private sector. Instead, such grants 
of limited liability for information security products and services are 
more likely to have the inverse effect. They are likely to 
unintentionally create incentives for lower quality in information 
security products and services, indirectly undermining National 
security and consumer protection advancement.
1. Limitations of liability are likely to disrupt information security 
innovation in the marketplace--an outcome that contradicts the goals of 
the SAFETY Act--and to create disincentives for corporate purchasing 
based on information security technical efficacy
    The marketplace for information security products and services has 
dramatically evolved since the passage of the SAFETY Act. While the 
SAFETY Act's liability limitation incentives for creation of new 
information security products may have been helpful in 2002, in 2015 
they are unnecessary. The market for information security is robust and 
has matured significantly: According to some estimates, sales of 
digital security products and services are likely to approach $80 
billion worldwide in 2015 and rise to $93 billion in the next 2 
years.\1\ Information security company companies are successfully 
obtaining venture capital easily and engaging in IPOs,\2\ and high-
quality information security products are successfully appearing in the 
market. Because of this healthy market growth, any selective liability 
limitation incentives injected today by the SAFETY Act are likely to be 
undesirably disruptive and damagingly counterproductive to the 
successfully blooming market for information security products and 
services.
---------------------------------------------------------------------------
    \1\ http://www.betaboston.com/news/2015/07/17/cybersecurity-firm-
rapid7-raises-103m-in-years-first-boston-tech-ipo/.
    \2\ Id.
---------------------------------------------------------------------------
    Because of the fast pace of innovation in information security, it 
is likely that the liability protection offered to certified products 
by the SAFETY Act will outlive the optimal technical efficacy of those 
certified products. Yet, any technology deployed during the period of 
designation is protected for the lifetime of designation. Indeed, the 
older a certified product becomes, the more outdated and potentially 
vulnerable it is likely to become, particularly because material 
changes may require DHS notification/refiling to maintain 
certification. Meanwhile, the SAFETY Act liability shield remains 
constant across time. Thus, it is precisely the older, potentially more 
vulnerable certified technologies that may command a lower pricepoint 
and superficially appear most cost-effective to corporate decision 
makers without technical expertise.
    As a consequence, business purchasing incentives could undesirably 
shift away from maximizing best practices in information security in 
favor of maximizing liability limitation. Corporate CFOs and general 
counsels will be likely to override the technical judgement of the CISO 
and their information security engineers in at least a portion of 
corporate information security products purchasing decisions. Companies 
will therefore likely shift away from purchasing based primarily on 
technical efficacy toward purchasing information security products 
based on whether they are certified under the SAFETY Act, even when 
those certified products may be of inferior technical quality or a 
worse business fit. In granting limitations of liability to only 
certain information security companies under the SAFETY Act, DHS would 
unnecessarily manipulate an already-competitive information security 
marketplace, potentially hindering adoption of new information security 
technologies in favor of older ones.
    A significant and growing portion of the information security 
expert community does not view the use of liability limitation 
approaches as the correct path to improving public and private-sector 
information security. As vulnerabilities will increasingly lead to 
potential loss of human life,\3\ code quality and information security 
rigor in products become paramount. Similarly, sophisticated technology 
companies with heavy investments in information security in many cases 
do not necessarily support limitations of security liability, and they 
are concerned that less ethical companies are misrepresenting the 
quality of the security in their products and services. Due to low 
enforcement and lack of information security liability, the market 
currently inadequately sanctions misrepresentations of information 
security quality in products and services. Liability limitation for 
information security products will only exacerbate this code quality 
problem, unfairly disadvantaging the companies who purchase the best-
of-breed information security products based on technical information 
security concerns and enterprise fit rather than based on DHS 
certification.
---------------------------------------------------------------------------
    \3\ http://www.wired.com/2015/07/jeep-hack-chrysler-recalls-1-4m-
vehicles-bug-fix/.
---------------------------------------------------------------------------
    Selective liability limitation through the SAFETY Act also 
disadvantages information security start-ups. Start-ups are most likely 
to be allocating resources to code development at the expense of 
allocating budget to the legal resources necessary to apply for a 
certification under the SAFETY Act. Yet, security start-ups sometimes 
offer the most appropriate product for a particular information 
security corporate need from a technical perspective.
2. The level of technical rigor in procedures in the SAFETY Act 
certification process are suboptimally transparent
    Pursuant to my review of available information regarding the SAFETY 
Act certification process, the process of certification is currently 
suboptimally transparent. Available DHS materials raise material 
concerns regarding the technical rigor and thoroughness of the vetting 
process for certification of information security products and 
services. DHS states in informational materials on its website 
regarding the certification process that it views itself as 
``nonregulatory'' and that a body of unidentified ``technical experts'' 
will provide ``suggestions.'' The process appears to be largely 
applicant self-reported with respect to product and services 
performance and quality. It is not clear from available DHS materials 
that DHS performs any independent penetration testing, analysis of code 
quality, assessment of patching speed or quality review of self-
reporting through prior applicant security advisories during the 
process of evaluating applications. Members of the information security 
research community have also raised various concerns regarding the 
process.\4\ For example, my consultations with private-sector 
vulnerability database experts have yielded potentially important 
unanswered questions regarding the quality of currently-certified 
information security products' advisory release history.\5\
---------------------------------------------------------------------------
    \4\ http://www.csoonline.com/article/2918614/disaster-recovery/
fireeye-offers-new-details-on-customer-liability-shields-under-the-
safety-act.html.
    \5\ Interview with content managers at OSVDB.
---------------------------------------------------------------------------
    An applicant-driven, non-transparent process is not optimal for a 
Governmental process culminating in the substantial privilege of a 
grant of limited liability for harms resulting from information 
security inadequacy. When these process ambiguities are added to the 
sub-optimally precise definitions in the SAFETY Act regarding the 
classification of security incidents and the broad discretion afforded 
to DHS in interpretation, substantial concerns exist regarding the 
current structure of the certification process.
3. Grants of limited liability for information security products are 
likely to negatively impact timely patching, code integrity vigilance, 
and the quality of advisory disclosures in certified information 
security products
    DHS currently lacks adequate enforcement authority to require 
correction of corporate information security inadequacies or to stop 
companies from selling dangerously vulnerable products in the 
marketplace. In fact, as expressly stated with visible frustration in 
DHS advisories, companies feel at liberty to brazenly disregard DHS's 
demands for correction of even serious security vulnerabilities in 
their products and services.\6\ Adding a layer of liability protection 
under the SAFETY Act for information security products would only 
exacerbate this bigger DHS enforcement problem, creating additional 
incentives for certified companies to neglect or delay patching or 
updating of their products.
---------------------------------------------------------------------------
    \6\ https://ics-cert.us-cert.gov/advisories/ICSA-14-084-01 (``Festo 
has decided not to resolve these vulnerabilities, placing critical 
infrastructure asset owners using this product at risk.'')
---------------------------------------------------------------------------
    Removing risk of liability eliminates an important corporate 
incentive for timely patching, internal vigilance regarding code 
quality, and release of adequate security advisory notices. The primary 
information security challenge faced in the marketplace today is 
policing the consistent quality of information security products and 
services in light of their increasing vulnerability across time. 
Deteriorating quality and unpatched information security products 
create a false sense of security and leave their users vulnerable to 
attack. The liability limitations of the SAFETY Act do nothing to 
improve the quality and integrity of information security products. 
Instead, they potentially create perverse incentives for lower levels 
of product and services vigilance through a liability buffer for 
certified companies.
4. Grants of limited liability under the SAFETY Act for information 
security products may indirectly disrupt information security 
enforcement work of other agencies, harming our economy and National 
security
    DHS's selective certification of particular information security 
technologies and grants of liability limitation may hinder the work of 
other agencies working to improve information security. In particular, 
the work of the Federal Trade Commission, Federal Communications 
Commission, Securities and Exchange Commission, and Consumer Financial 
Protection Bureau may be impacted. These and other agencies are 
currently expanding efforts to police the quality of information 
security and data stewardship offered by businesses to consumers and 
business partners. These agency efforts are still in their nascence in 
many cases, but ramping up swiftly. A limitation of liability would 
potentially meaningfully circumscribe these agencies' efficacy in using 
fines or disgorgements to obtain redress for consumer, businesses, and 
National security harms arising from information security inadequacy. 
This is an undesirable limitation on important work by other agencies 
aimed at improving information security in our economy.
5. Limiting States' rights to impose liability for corporate 
information security misconduct will further erode consumer trust and 
damage innovation in the United States
    Information is only as secure as the weakest link in the chain of 
possession. Therefore, it is essential that the highest possible floor 
of information security be created across organizations in both the 
public and private sector. However, the field of information security 
law is very young, and best practices of conduct continue to evolve 
rapidly. As such, determining the best legal regime for addressing 
information security liability will require experimentation on the 
State level to arrive at an optimal legal framework. A broader social 
and scholarly conversation on information security policy is 
desperately needed, and it requires time to develop. At this juncture I 
believe strongly that it is dramatically premature and undesirable to 
Federally limit liability for information security misconduct 
demonstrating a lack of due care in any form, including through the 
SAFETY Act.
    States have traditionally been the laboratories of experimentation 
for novel legal approaches to liability. The best course of action with 
respect to any consideration of limitation of liability is one 
exercising deference to Federalism concerns and States' regulatory 
interests in redressing the harms of their citizens for information 
security harms. Different States engage with consumer protection 
questions in different ways, and no National consensus currently exists 
with respect to the best course of action for information security 
liability. Federally imposing the model of the SAFETY Act liability 
limitations undesirably breaks with the Federalist tradition of 
deference to State liability determinations. It also disrupts the 
traditional deference of allowing State contract law to be the primary 
source of liability shifting determinations between contracting 
parties. Information security companies are usually represented by 
attorneys who may lack SAFETY Act expertise but who are amply capable 
of negotiating contractual limitations of liability with business 
partners, as are, in turn, the attorneys of the companies that rely on 
those information security. Contract and tort law are already beginning 
to adequately rise to the challenges presented by the information 
security marketplace, and Federal intervention into software liability 
limitation is not necessary and premature at this juncture.
    Thus, I strongly urge this committee to exclude information 
security products and services from the SAFETY Act and avoid legal 
approaches driven by limitations of liability in information security. 
Selectively granted limitations of liability through the SAFETY Act 
will hinder innovation in information security and negatively disrupt 
the information security marketplace. They are also likely to 
indirectly damage National security and stifle consumer protection 
efforts of other agencies.
    Instead, I urge this committee to engage with a number of untried 
and more promising approaches likely to stimulate wide-spread 
information security improvements in the private sector. One approach 
that holds significantly greater promise is the repurposing of SAFETY 
Act funding toward phased-out information security tax incentives 
across 10 years for small businesses and entrepreneurs. These tax 
benefits would offer incentives for enterprises that are operating on 
tight budgets to invest in information security education, hire 
security personnel, and purchase information security goods and 
services. A tax incentive approach does not suffer from the significant 
negative secondary consequences described above, and it offers a more 
immediate and direct impact on improving private-sector information 
security.

    Mr. Ratcliffe. Thank you, Dr. Matwyshyn.
    The Chair now recognizes myself for 5 minutes for 
questions.
    So I think, as I listen to the testimony of all three of 
you, where I found agreement is that you all believe that the 
SAFETY Act itself is working very well or as it was originally 
intended, and the SAFETY Act Office, likewise, is a very 
properly functioning part of DHS currently.
    I think you would all probably also agree, as we all would, 
that we do need to incentivize the creation of cyber 
technologies to provide solutions and protections for what is a 
very obvious and public threat to our cybersecurity right now 
across this country.
    Obviously, where I did hear disagreement was Dr. Matwyshyn, 
essentially, her testimony is--or your opinion, Doctor, as I 
understand it, is you don't think that the SAFETY Act or the 
SAFETY Act Office is the best place for this and could be 
disruptive, I think as you said, to the information security 
ecosystem.
    So let me start with Mr. Finch and Mr. Biagini and give you 
an opportunity to comment on that.
    Mr. Finch. Well, I would disagree for several reasons.
    First of all, first, when it comes to cutting-edge 
technologies being introduced into the marketplace, I actually 
think that one of the critical problems that we see when it 
comes to information security is that too many companies, as 
well as the Federal Government, rely on outdated technologies 
for far too long.
    A critical problem that I have seen on a regular basis, for 
instance, is that far too many organizations rely on outdated 
signature-based technologies, standard anti-virus technologies. 
Part of the reason that is, particularly in the private sector, 
is that companies are extremely concerned about liability when 
they switch technologies. If they switch from a proven 
technology to one that is, ``advanced'' or ``experimental,'' 
they are concerned that they can face liability for making a 
``wrong decision,'' and that there would be allegations of 
negligence or failure to exercise due diligence.
    The SAFETY Act would give a level of comfort that: (A) The 
product has been vetted, and, (B), that there is some measure 
of liability protection associated with its use.
    The other point I would make is that, when you go through 
the SAFETY Act certification process--and I know Mr. Biagini is 
exceptionally familiar with this, as am I--it is one of the 
most rigorous processes that you will ever encounter when it 
comes to determining whether or not there is a rigorous quality 
control, quality analysis, and continuous improvement process 
in place. You will not receive SAFETY Act protections unless 
you have in place a rigorous program to ensure that your 
product continues to work once it is deployed and that you 
continue to match threats. It is not fire and forget.
    In addition, when the Department grants you liability 
protections, it clearly defines the threats that the device 
will protect against and what the liability protections will 
protect against. So if you have a standard signature-based 
anti-virus program, it will not offer you protections against 
non-signature-based, polymorphic, heuristic, behavioral-based 
malware with constantly-changing software.
    So simply having a SAFETY Act-approved anti-virus 
signature-based defense isn't going to protect you and is not 
going to be an incentive to not adopt new protections.
    Mr. Ratcliffe. Thank you, Mr. Finch.
    Mr. Biagini.
    Mr. Biagini. Yes, Mr. Chairman. Just a couple of additional 
points. I agree with what Mr. Finch said, and I would add, you 
know, the comment that there is lots of investment going on, 
money is pouring into this area and so forth, what will happen 
to all of that if and when there is a giant enterprise-
threatening attack on a critical infrastructure and liability 
is massive and is spread around--deaths, injuries, business 
disruption, companies' very existence is threatened?
    That is what we don't want to have happen. We have to take 
the natural next steps to evolve the SAFETY Act to move toward 
that full implementation and protect companies to keep that 
investment going, No. 1.
    No. 2, as Mr. Finch mentioned and you mentioned, Mr. 
Chairman, at the beginning about the SAFETY Act process being 
an on-going process once you get SAFETY Act coverage, 
absolutely correct, it is not a static situation.
    You, as an applicant, once you get SAFETY Act coverage, if 
you are upgrading your technology, if you are changing your 
technology in any material way, you need to go to the SAFETY 
Act Office. They are open for business to take on any 
modifications. They will do it in real time. The modifications 
will occur. Your SAFETY Act coverage will be upgraded to cover 
the next versions of what you are making.
    So it is a very on-going process that is well done at the 
SAFETY Act Office.
    Mr. Ratcliffe. Thank you, Mr. Biagini.
    In your testimony, you emphasize that severity and impact, 
not the identity of the attacker, should be the operative 
consideration in triggering SAFETY Act protections.
    Can you give a scenario of how coverage for a qualified 
cyber incident would be triggered? In answering that, would you 
comment on whether or not you think any of the cyber incidents 
that have occurred to date rise to that level of severity and 
impact?
    Mr. Biagini. Well, certainly, I think an attack on the 
electrical grid of the United States, nuclear plants, our 
energy sources, our water treatment sectors, any attacks like 
that that would debilitate, take down our ability to deliver 
those kinds of absolute necessities to the American citizenry 
would constitute the kind of severely impactful incidents that 
would receive coverage under this amendment.
    Do any of the ones that have occurred to date, in my mind, 
rise to that level? Possibly. Possibly.
    But where I think the emphasis ought to be is on critical 
infrastructure--as I say, the health care system, the financial 
system, the energy systems, the water treatment systems, and so 
forth, those that make up the bread and butter, if you will, of 
keeping America and the populace well and safe. Attacks on 
those that cause great impact and material damage are the types 
of attacks I think should be recognized under this amendment.
    Mr. Ratcliffe. Thank you, Mr. Biagini.
    My time has expired. The Chair now recognizes Mr. Langevin 
for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    I again want to thank our witnesses for being here.
    Mr. Finch, Mr. Biagini, it seems like you have kind of gone 
to the doomsday end of the spectrum on this conversation.
    I guess I would like to ask Dr. Matwyshyn if you would 
respond and if you would clarify and give your perspective on 
that, on the SAFETY Act and liability protection, if that is 
the best way, as I touched base in my statement.
    But, also, I would like to ask you, and then the panel can 
also chime in, does the information security expert community 
uniformly support--and I am asking Mr. Richmond's question, to 
clarify, on this second half. Does the information security 
expert community uniformly support the use of liability 
limitation approaches as the correct path to improving public 
and private-sector information security?
    So we will start with you, Dr. Matwyshyn.
    Ms. Matwyshyn. It would be my pleasure to answer those 
questions.
    Taking the doomsday scenario first and foremost, it would 
be devastatingly misguided in protecting our National security 
and our economy to allow the general counsel to be selecting 
the products that the security team is using in defending our 
Nation. When we are talking about that kind of a high-stakes 
situation, we need to have the security experts--the engineers, 
the chief information security officer--using the state-of-the-
art technology, whether it is certified or not, to defend us 
and keep us all safe.
    A technology at the end-of-life of certification is still 
certified. We could find ourselves with business decision 
makers implementing a 5-year-old not-fully-patched technology 
in critical infrastructure. That is not the optimal way to 
defend us against attack.
    Information security changes dramatically, overnight in 
some instances. Think about Shellshock; it changed everything. 
A technology that hasn't patched for Shellshock 4 years later, 
that is a severe problem. That is not the way that we want to 
be making these decisions.
    The liability doesn't exist yet. The case law hasn't 
developed. So the information security ecosystem is not being 
crippled by copious liability coming from all directions at 
them in the courts. So those concerns are premature.
    What is not premature is the significant need to encourage 
companies to responsibly implement reasonable security 
practices through a holistic analysis of their own enterprise 
and to determine the state-of-the-art technologies that best 
fit their business needs, particularly in critical 
infrastructure.
    Members of the information security research community do 
not support liability limitation approaches uniformly. In fact, 
many of them believe that the best security teams are being 
unfairly unrecognized for their efforts because of the weak 
enforcement of information security and that companies without 
the same degree of care in information security are getting the 
benefit of the marketing value of saying that they have top-
notch information security when they actually don't.
    So the top-tier information security professionals are not 
worried, in many cases, about the risk of liability at present, 
because the evolution of the product ecosystem would first 
recognize the bottom tier of sub-optimally secure product/
services companies. That ferreting out would be a substantial 
benefit to the overall security of our ecosystem and the 
economy and our National security.
    So the major changes that can happen overnight in security 
really require the use of the best technology as it exists in 
that moment, not one that is driven by a choice around 
liability limitation.
    Mr. Langevin. Thank you.
    To Mr. Finch and Mr. Biagini, would you care to ask--could 
you give us your perspective on that part of the question Mr. 
Richmond wanted to ask? Does the information security expert 
community uniformity support the use of liability limitation 
approaches as the correct path to improving public and private-
sector information security? To your knowledge, have concerns 
been raised by technology experts regarding this approach?
    Mr. Finch. Well, I obviously can't speak uniformly for the 
information security community, Mr. Langevin.
    By the way, I very much support and thank you for all your 
efforts with respect to cybersecurity. You are truly one of the 
leaders in this community. You have done more to bring 
attention to this subject than, I think, most people in 
Congress, so thank you for that.
    But I would say that the information security community is 
completely overwhelmed at this point with the number of 
threats. I think you would agree that it is really a triage 
matter for them at this point. Their problem is just being 
overwhelmed with the number of attacks and trying not to get 
fired when the incident occurs. It is not an ``if'' the 
incident occurs; it is not even ``when.'' It is, how long has 
it been occurring? So it's very much, how do we get handle on 
this?
    Part of the issue that is completely beyond their control 
is that they really can't do anything other than try and slow 
down the number of events that are occurring. There needs to be 
an offensive component of this, which is the responsibility of 
the other side of this dais. It's the Executive branch's 
responsibility, and that's a subject for another hearing.
    But when it comes to liability protection, that's 
absolutely a concern of a number of the members of the 
information security community, because, remember, now the CIO 
and the CISO are getting a seat at the directors and officers 
table at this point, and risk management is coming to their 
plate. They are sitting in at the board meetings. They are 
sitting in at the stockholder meetings. They are learning about 
the serious concerns. They are being fired. They are being held 
accountable to the boards of directors and to the CEOs and the 
CFOs, et cetera.
    So, absolutely, liability is of significant concern to them 
and how to manage that and, also, how to tell the difference 
between what is snake oil and what is not when it comes to 
information security technologies.
    That's an important consideration when it comes to SAFETY 
Act, as well. Even if the liability protections are not 
triggered by a declaration from the Secretary of Homeland 
Security, whether an act of terrorism or a cyber incident, the 
mere fact that it has been reviewed by the Department of 
Homeland Security is extremely helpful to a CIO or a CISO.
    Mr. Langevin. Mr. Biagini.
    Mr. Biagini. Yes, I would add one other concept. I think we 
have to be careful not to let the perfect get in the way of the 
good, if you will. The SAFETY Act process is a well-established 
one. The SAFETY Act Office has shown its ability to review and 
approve cybersecurity technologies.
    There is great concern about liability in that sphere. It 
is on top of mind of many, many companies that I deal with. You 
know, the process that has been established over the last 13 
years has been a good one; it continues to evolve. I think it 
can--I'm certain it can stand and meet and beat the 
requirements that might be upon it with this amendment.
    So I would second Mr. Finch's remarks that liability is a 
driver here among the industry members. Even though there 
hasn't been a, if you will, debilitating attack yet leading to 
that kind of enterprise-threatening liability, what we don't 
want to do is wait for that to happen and then try to act with 
appropriate legislation.
    Mr. Langevin. Thank you, and yield back.
    Mr. Ratcliffe. The gentleman yields back.
    The Chair now recognizes the former district attorney from 
New York, my colleague Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman.
    I will just open this up to the panel, because I am not 
sure who is the person who would want to answer this or who 
would have the expertise.
    But don't companies protect their data? Don't nuclear 
regulatory power plants protect their systems, and the water 
treatment systems, without the incentive of having limited 
liability? Why do they need that incentive to do this, take 
these measures to protect themselves?
    I open that up to anyone who would care to answer.
    Or, if no one cares to answer----
    Ms. Matwyshyn. I am happy to.
    Mr. Biagini. Would you like to?
    Ms. Matwyshyn. So I concur with the spirit of your 
question. We want our nuclear power plants and water treatment 
facilities to engage with the state-of-the-art of security for 
the purpose of protecting their operations and be driven by the 
desire to defend our Nation and our populace, not by concerns 
of limitations of liability and whether they're present or 
absent.
    That's why the engineering determinations of the state-of-
the-art security technology must take precedence, or we will 
inevitably see the data breaches that are permeating our 
society currently and the types of serious incidents that are, 
unfortunately, regularly happening continue and escalate.
    The OPM breach, for example, that was much less the--if we 
look at the root causes, it was, yes, we have malicious actors 
on one side, but there were some basic, fundamental errors that 
could have been caught through a thorough internal audit and 
review process.
    So we have standards, such as the ISO standards, now that 
will encourage companies and other organizations to perform 
these rigorous internal audits. We all need to learn and grow 
together to defend ourselves together as a country rather than 
look for ways to limit liability and just try to engage with 
reasonable standards of security.
    The liability will, in my opinion, not emerge if companies 
simply engage with reasonable security measures. I trust our 
federalist structure of letting our courts across various 
States work with these issues and letting various States 
decide. No officer and director will ever be fired for conduct 
that reflects the state-of-the-art use of security practices. 
So the risk does not exist when companies engage with these 
issues in a rigorous technical manner.
    Mr. Donovan. The other two gentlemen, Mr. Biagini or Mr. 
Finch.
    Mr. Finch. Yes. I think companies are very much invested in 
cybersecurity. I know that for a fact. Every director, every C 
suite member that I speak to is extremely concerned about 
cybersecurity. They know it's a problem; they know they need to 
do something about it.
    Where they are held up, where they are paralyzed, frankly, 
is what do we do? They are hearing so much about, what is 
state-of-the-art, what is the best practice? Frankly, it 
changes depending on who you're talking to and what the news of 
the day is, with respect to a new vulnerability or a new 
attack.
    Let's remember that our adversaries truly have the 
advantage when it comes to cyber attacks. To use military 
parlance, they have complete freedom of movement. They can pick 
the time, the place, and the manner of their attack, with 
absolutely no concern about being prosecuted or having their 
actions interfered with. There is no threat that a law 
enforcement agency--particularly if you're operating under the 
protection of a foreign government or in a lawless area, no law 
enforcement agency, no government is going to come after you 
and disrupt your planning. So you can take your time and 
practice until you get it right.
    So, no matter how advanced your defense is, you will be 
penetrated. Breach after breach has demonstrated that. In a 
world where 500,000 pieces of malware are created on a daily 
basis, there is no way any company is going to be able to 
defend against that.
    To the doctor's point, what is reasonable? That is the 
question. That is absolutely the question. I think what we're 
forgetting here is that it's not necessarily about whether 
there's going to be a liability, finding a liability; it's 
about getting to the point of when a determination is made 
regarding liability. It's going to be extraordinarily 
protracted and expensive in order to get to that point.
    Litigation related to the 1993 World Trade Center bombing 
went on for over 15 years. Litigation related to the 2001 
September 11 terrorist attacks went on for over a dozen years. 
Hundreds of millions of dollars were spent in legal fees.
    Now, as two lawyers at the table, that sounds really nice, 
but, frankly, as an American, I don't want that to happen. I'd 
much rather see that we have companies investing in the right 
technologies to mitigate those events and likely stop those 
events or make sure that the losses are far less significant 
than they actually were on those two terrible days.
    Mr. Donovan. My time has run out.
    Mr. Biagini, if I could just ask you a second--a different 
question. Who determines what the best practices are? Is it 
DHS? Is it the industry that determines the best practices? If 
this amendment to the SAFETY Act is done, what is going to give 
those companies the protection under that limited liability? 
Who is going to make that determination?
    Mr. Biagini. Congressman, a couple responses to that.
    Oftentimes, when we file SAFETY Act applications, there are 
industry standards involved, there are regulatory standards 
involved, there are company standards and internal standards 
involved that are in play with an application. When the SAFETY 
Act Office gets an application like that, they look at all of 
those. They look to see that you're complying with, if not 
exceeding, the various standards that may apply.
    In the situation with cybersecurity, I think we'll have 
something similar. We'll have regulatory standards. We'll 
probably have NIST guidelines. We'll have company standards. 
We'll have industry standards. The SAFETY Act Office will be 
looking at all of that, as they do with any application, to 
look for compliance and exceeding compliance.
    Back to your initial question about, well, aren't companies 
already protecting themselves, what I do for a living is I 
defend against tort suits that are filed in court, and I 
represent companies that get sued. Oftentimes, when all they 
can show is they're complying with minimum standards, whether 
it's an industry standard or a regulatory standard, in court, 
that doesn't go very far. That won't get them a very good 
defense.
    So, in order to incent them to go above and beyond whatever 
these minimum standards may be, whether they're industry or 
otherwise, I think that's why we're talking today about the 
possibility of the SAFETY Act providing those additional 
incentives.
    Mr. Donovan. Thank you.
    Mr. Ratcliffe. The gentleman yields back.
    The Chair now recognizes my friend from Pennsylvania, Mr. 
Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Finch, I think, as has been noted in testimony, many 
companies are slow to make improvements to their management of 
cyber risk because security costs money, obviously.
    How do you think amending the SAFETY Act to cover 
cybersecurity gives companies further incentives to adopt cyber 
best practices, if so?
    Mr. Finch. Well, first of all, utilizing SAFETY Act-
approved technologies and services or going through the process 
actually helps contain costs, whether it's the risk-management 
cost associated with insurance--and, as Mr. Biagini noted as 
well, the actual improvement in processes, policies, and 
procedures, this is very much a best practices review 
internally as much as it is a liability review.
    So you actually obtain efficiencies by going through this 
process and identifying problems that you have internally that 
are fixed going through the SAFETY Act process. They have to be 
fixed in order to obtain SAFETY Act protections. I have had any 
number of applicants say to me afterwards, ``We're a better 
company for having gone through this process.''
    Mr. Perry. But what's the cost? I mean, is there, like, a--
is there some kind of way to measure the cost by either your 
revenues or your sales of your personnel or some way to measure 
the cost per increment to determine--I mean, at the end of the 
day, everybody's got to meet the bottom line, so----
    Mr. Finch. Absolutely. It's an individualized analysis. To 
be perfectly frank, there are a number of companies that elect 
not to go through the SAFETY Act process because they don't 
necessarily think that it is in their economic interest to do 
so, whether it's because their liability concerns aren't that 
significant or they don't have the dollars and they're 
satisfied just relying upon insurance.
    But the companies that feel that their liability concerns 
are so great, they look at the potential expense of this 
process--which is free, by the way. It is a free process. The 
Department of Homeland Security doesn't charge anything. Where 
money is involved, it's internal personnel time involved in 
putting together an application. If you need to retain outside 
counsel or a consultant, you can have someone work with you in 
order to put that application together. That typically runs in 
the tens of thousands of dollars. When you amortize that over a 
5-year period, it's not very much money for a company to go 
through that process.
    But, at the end of the day, you know, you did hit on a very 
important point, which is that, you know, companies don't have 
unlimited amounts of money to spend on cybersecurity. They 
still have to operate a successful business. This is actually a 
very important point that we need to talk about, as well, which 
is that companies could spend as much money as they have in 
their treasury on cybersecurity products and services and best 
practices, and they will still get breached, and they will 
still face litigation after that breach for having negligent 
design or negligent implementation of their security program.
    In all likelihood, that case will still go to a jury or to 
a decision by a court. Companies will say, well, what are we 
supposed to do in order to actually prove that we did the right 
thing? They may eventually be vindicated in court. I'm sure if 
someone like Mr. Biagini is representing them, they will come 
out just fine. But, again, they will wind up spending a lot of 
money on something like that.
    So we want to avoid that kind of situation. We want to give 
them confidence and say, look, not only are you doing the right 
thing and spending your money wisely, but we'll also give you a 
little bit of limited liability protection, not a complete 
grant of immunity--that's not what this program is--but we will 
give you some liability protections.
    One other thing I would like to say very quickly. I think 
that if you were to include cyber attacks and cybersecurity 
technologies as a small amendment to the SAFETY Act, one of 
most exciting opportunities that I see being utilized in this 
context is shifting the focus from cyber defenders to other 
companies involved in information technology.
    When I was in 7th grade, I had a project in wood shop where 
we had to take an egg, and, using a few small pieces of paper 
and wood sticks, we had to build a crate around the egg and 
drop it from 5 feet and hope that the egg didn't break. Of 
course, I failed. I'm not very good at technical things, which 
is why I'm a lawyer. I'm also not good at math, full 
disclosure. But the point is that cybersecurity is like that 
brown paper around the egg. What's the underlying egg? It's the 
hardware and the software.
    That hardware and software has lots of bugs and 
vulnerabilities. I think a wonderful application that is 
waiting out there is to have the underlying software and 
hardware developers go through the SAFETY Act process.
    As Mr. Biagini knows--he talked about it with the airports, 
the port authority, et cetera--the infrastructure itself, not 
necessarily the defensive technologies, is now actually 
applying. Wouldn't it be great if Adobe Flash actually built 
security into its own product so we didn't have to design all 
these security products to stop it from having vulnerabilities 
that are exploited by the Chinese and the Russians?
    Mr. Perry. Thank you, Mr. Chairman. I yield.
    Mr. Ratcliffe. The gentleman yields back.
    Because we have a number of questions that haven't been 
answered, the Chair will entertain a second round of questions. 
I recognize myself for 5 minutes.
    So, Mr. Finch, to the points that you were just making with 
regard to litigation and limited liability and the costs 
associated with that, I guess I would like to hear a little bit 
about how the SAFETY Act Office currently works with insurance 
companies.
    Then, separately, can you discuss how adding cyber 
incidents as a trigger to the SAFETY Act would potentially spur 
growth in the cyber insurance marketplace? You know, 
underwriters and actuaries grapple with risk analysis, and it 
would seem to me that this change would help with that, but I 
would like your perspective on that.
    Mr. Finch. Sure.
    With respect to the SAFETY Act Office working with the 
insurance community, it works with a number of carriers as well 
as brokers to help determine what the marketplace is for 
insurance. Because, remember, under the SAFETY Act statute, 
there are actually statutory limitations as to the types of 
insurance or the amounts that the SAFETY Act can impose as a 
requirement on applicants. There are two. No. 1, an application 
cannot be forced to carry more insurance than is available on 
the world market. Second, an applicant cannot be forced to 
carry an amount of insurance that would unreasonably distort 
the price of their product, i.e., make them uncompetitive.
    So the SAFETY Act Office has to stay somewhat in contact 
with the carrier and broker community in order to understand 
what the terrorism insurance marketplace will look like and 
will now also have to stay in contact with the cyber insurance 
marketplace to understand what that looks like.
    Again, it is an interesting one, because the cyber 
insurance marketplace mostly relates to data breaches, at this 
point. It is actually a fairly limited marketplace, only about 
$3 billion in global capacity. The most insurance that any one 
company can obtain is maybe $200 million, $250 million for a 
data breach. Note what is missing: Physical damage, personal 
injury, loss, et cetera. That is not an insurance marketplace 
that is really available.
    Having the SAFETY Act out there, having carriers know that 
they can sell this insurance but, with the SAFETY Act, they 
will actually be insuring products and services that they know 
have been vetted, will help them. It will help them collect 
data that will be useful for actuarial purposes and actually 
provide a more stable marketplace that will support their 
business model at the end of the day.
    I would also add, too, that I was recently at an insurance 
conference, and it's a fairly obvious point but not one I had 
necessarily thought of--and, again, another failing of mine is 
sometimes I miss the very obvious things right in front of my 
face. But we as individuals do not carry one insurance policy 
for everything in our life. We have life insurance, we have 
disability insurance, we have health care insurance, we have 
automobile insurance, we have homeowners insurance, et cetera.
    For some reason, we have been thinking about cybersecurity 
insurance as a one-policy-fits-all program. I don't think that 
is correct. I think there are multiple cyber insurance policies 
that need to be available.
    I think the SAFETY Act would actually help stimulate that, 
whether it is my cyber HMO model, whether it is the 
reimbursement policies that we're currently taking about or 
some other types of cyber insurance programs that we haven't 
even thought about at this point. The problem is so broad and 
so significant that the SAFETY Act could help serve as a 
stimulus to really diversify the insurance marketplace.
    Mr. Ratcliffe. Mr. Biagini.
    Mr. Biagini. Yeah, just a few comments on that.
    Think about it in this sense. If an insured has these 
liability protections and they end up being a first line of 
defense should there be a cyber incident that results in 
lawsuits, the carrier is going to be more willing to sell 
insurance into that scenario, into that potential situation, if 
it already knows that the insured could defend itself in those 
lawsuits well with these kind of tort protections.
    That is exactly what has happened when the SAFETY Act was 
passed initially, is it granted these presumption of dismissal 
protections, it capped liabilities, and so forth. That 
stimulated the insurance market back into action, along with 
the passage of TRIA. So I've seen a direct connection over the 
years in that sense.
    Also, you know, when an applicant comes to the SAFETY Act 
Office and is trying to get SAFETY Act coverage and doesn't 
have insurance--terror insurance, in this case--the SAFETY Act 
Office will work with that applicant, will look for quotes in 
the insurance market that would be consistent with the revenues 
that this applicant is generating from this particular 
technology.
    It is a very synergistic process whereby the SAFETY Act 
Office is being very responsive to that applicant. It is also 
pulsing insurance and getting insurance involved and ultimately 
writing insurance for that--having that applicant get a modicum 
of insurance in order to get the SAFETY Act coverage. So it is 
a very--there's a lot of synergy with the whole process of 
getting SAFETY Act coverage with the insurance industry.
    Mr. Ratcliffe. Thank you, Mr. Biagini.
    Dr. Matwyshyn, as I read your testimony, your written 
testimony, it seemed to me that your perspective is that the 
liability limitation that would be granted through the SAFETY 
Act would be a disadvantage for cybersecurity start-ups.
    It would seem to me that most folks would see a SAFETY Act 
designation or a certification that comes with the rigorous 
vetting that DHS would do--would see that as an advantage. So I 
want you to comment on how you see it as a disadvantage.
    Ms. Matwyshyn. I'd be happy to.
    The first step in being able to file for the certification 
requires hiring a very expensive attorney. When two high-level 
information security engineers get together in a garage to 
start a start-up, they don't have that money. They are 
frequently the ones who are creating the state-of-the-art 
security products.
    So we are disadvantaging their new, fledgling start-up, 
which may be the state-of-the-art technology and best capable 
to defend us and our infrastructure, in the purchasing decision 
of a corporate decision maker who looks at the choice of 
security technologies not solely through the lens of the 
technical rigor of a security engineer but perhaps primarily 
through the lens of liability limitation, broadly speaking, and 
other corporate concerns.
    Getting the state-of-the-art technologies in place is the 
paramount goal, to the extent we can achieve it inside our 
economy and inside our infrastructure. So that's my concern 
with the entrepreneurship limitations that would result, I 
think, from an expansion of this act.
    Mr. Ratcliffe. Thank you, Dr. Matwyshyn.
    Gentlemen, I want to give you--my time has expired, but I 
want to give you an opportunity to respond to what you just 
heard from Dr. Matwyshyn and that perspective that she has.
    Mr. Biagini. Well, the doctor may be interested in knowing 
that, oftentimes, we take on clients that we don't bill and 
that have a technology that would make a difference in the 
marketplace. They need to be able to get it off the ground. 
They need to be able to sleep at night that, if they do sell it 
into the marketplace, they won't get sued out of existence if 
there is a terrorist attack or, in this case, a cyber incident.
    Having SAFETY Act coverage has been the difference, many 
times, between that small company that decides to just sit on 
the sidelines and not do any further development and getting 
the coverage which gives them a boost in the marketplace, 
confidence to sell their technology into the marketplace 
without the fear of being sued out of existence. That has 
happened many times in my practice.
    Mr. Ratcliffe. As a follow-up to that, do you happen to 
know what percentage of SAFETY Act certifications right now go 
to small businesses?
    Mr. Biagini. I would not. I would just be guessing.
    Mr. Finch. Mr. Chairman, I think that would actually be a 
question for the Office of SAFETY Act Implementation, which 
actually leads me to a point I'm rather remiss in not making 
earlier, which is that I do think what's been left out of this 
discussion is how well the Office of SAFETY Act Implementation 
operates. I would dare say that they are the best-functioning 
element within the Department of Homeland Security.
    You know, we may have our disagreements with them at times, 
but I've always found them to be fair and reasonable. They are 
extremely dedicated to their work. To Dr. Matwyshyn's point, 
they are exceptionally helpful to small businesses and are 
very, in fact, proud of the fact that they will work with small 
businesses to help guide them through the process without the 
aid of counsel or a client.
    It is, of course, a voluntary program. There is no 
obligation to retain an attorney. The clients that Mr. Biagini 
and I represent typically want to retain an attorney because 
this is fundamentally a legal process and the general counsel 
wants to have a counsel involved. But there are also plenty of 
companies that do this on their own. I know, in particular, 
that there are any number of small companies that have gone 
through this process and have done so quite successfully on 
their own, working with the SAFETY Act Office, which is 
dedicated not to approving applications just for the sake of 
approving them but helping applicants be successful.
    Mr. Ratcliffe. Thank you, Mr. Finch.
    The Chair now recognizes Mr. Langevin for his questions.
    Mr. Langevin. Thank you, Mr. Chairman.
    Before I begin, just to answer the Chairman's question, 
from CRS, in 2013, 60 technologies were approved under the 
SAFETY Act, including 22 from small businesses, that's 37 
percent; 14 from medium-size businesses, that's 23 percent; and 
24 from large businesses, or 40 percent.
    So, if I could, I will go to Dr. Matwyshyn before I have a 
couple questions I'd like to ask.
    This has obviously been a wide-ranging discussion today and 
great point-and-counterpoint, which is how I would like to 
debate. So I will ask if there is anything that really stands 
out that you would like to mention for the record. Then I have 
a couple questions.
    Ms. Matwyshyn. Yes, just a few points.
    First and most fundamentally, the question of whether an 
enterprise is compromised or attacked goes to whether there are 
underlying vulnerabilities. So the first step in a strong 
information security program of any sort is the self-analysis 
to identify those vulnerabilities. Buying a product that has a 
certification will not address the underlying corporate 
information security problems that exist in various 
enterprises.
    Also, those purchased products are frequently 
misimplemented. So having the in-house staff necessary to 
engage with the technical-rigor piece of this is absolutely 
essential.
    But one historical fact that, if I may, I'd like to bring 
to our attention is that there is a robust evolution happening 
in contracting practices across various entities with respect 
to information security liability shifting. So we have private-
sector, private-ordering solutions that are getting at some of 
these problems that we're talking about today. We just need to 
let the market work through some of these problems in private-
ordering ways.
    So some of the liability concerns, to the extent they 
exist, are being addressed contractually now. That's exactly 
what happened after September 11. I was a practicing corporate 
attorney at that time, and we modified our contracts. So there 
were new provisions that were incorporated as needed to shift 
liability to address some of these types of new risks that were 
emerging.
    To the extent that the information security insurance 
market is emerging, it's my understanding that there is some 
granularity in the types of policies based on the types of 
enterprise that the particular insurance companies are 
targeting.
    So I think the major point that I'd like to emphasize is 
that the underlying defensive posture of the vulnerable 
enterprises needs to be the focal point of any successful 
holistic information security improvement program and ensuring 
that they are fixing the challenges that they face, the 
problems that they have in terms of vulnerabilities in the code 
that's implemented inside their organizations, first and 
foremost. Then the secondary concerns of purchasing various 
products to assist them, that is a second-tier concern. The 
underlying problematic flaws that they may have in their 
enterprise is where we start, in terms of the approach.
    The last point I'll just quickly mention. To that end, I 
think we have not yet tried certain other types of incentive 
programs, such as, for example, tax incentives to small 
businesses to encourage them to engage with education in 
information security, hire more information security staff, or 
to conduct meaningful self-audits and get auditors in.
    So, personally, I think that tax incentives would be a 
stronger way to go to raise the bottom level of the floor of 
information security across our economy. So I'd submit that as 
a potential other avenue.
    Mr. Langevin. Sure. Thank you. I like that point, as well.
    So, as a matter of fairness, I want to give both to Mr. 
Finch and Mr. Biagini the opportunity to say--to ask if there's 
anything in particular that you've been champing at the bit to 
clarify or add.
    But before I could do that, if I could just ask this one 
question. Hopefully, we can do this very briefly. Following up 
on the Chairman's earlier question, I'd like to ask each of you 
specifically, is there a cyber incident since 2002 that you 
believe should be Classified under a definition of 
``cybersecurity incident''?
    Mr. Finch. Oh, there could be several. I think that the 
data breach at USIS theoretically could be a cyber incident. 
While that was targeted and only involved 250,000 or so 
records, that was conducted by a nation-state, and that was 
done purposefully for espionage purposes and to commit harm. It 
could cause all sorts of National security and other types of 
harm. So that, theoretically, could be a cyber incident.
    If there was actual dollar losses associated with the 
distributed denial-of-service attacks by the Iranian Government 
and its cohorts against the banking industry, I believe it was 
about 2 years ago now, theoretically, that could be a cyber 
incident, as well.
    We've been fortunate in that there's been no kinetic events 
that have occurred within the United States, but they have 
occurred. There's been gas pipeline explosions in Turkey. There 
has been destruction of furnaces in industrial plants in 
Germany, I believe it was. Those would certainly qualify as 
cyber incidents.
    I also think, though, that, you know, we're fortunate in 
that, you know, I'm sort-of struggling a little bit to identify 
some particular cyber incidents. That shows that--one concern 
that I've heard is that this may be overused. It actually 
demonstrates that this is something that wouldn't necessarily 
be used that often. Much like there has been no declared act of 
terrorism because, knock on wood, we haven't truly had a 
significant act of terrorism on United States soil since 9/11.
    In situations where we have had some, such as the Boston 
bombing or if you want to call the recent events in Chattanooga 
an act of terrorism, which, again, is beyond my purview, there 
really weren't any SAFETY Act-approved technologies or services 
in the area such that there was a need to designate the event 
an act of terrorism.
    But I do feel confident in saying that, with the spread of 
advanced cyber attacks capabilities, it's coming. When you can 
go out on the Dark Web and buy malware for $30, when you can 
buy zero-days for a couple hundred dollars or maybe $1,000 or 
$2,000, and you can buy the services of hackers for less than 
the cost of getting one of my daughters to clean her room, 
which is not a lot of money--and, in my case, my daughters 
still don't do it--the point is that there will be some 
significant, significant events that will occur in the near 
future, and we will all, unfortunately, realize that we live in 
a very dangerous cyber era.
    Mr. Langevin. With the Chairman's indulgence, if you'd have 
any points that you are champing at the bit to clarify or add?
    Mr. Biagini. No. Just that, prior to 9/11, I remember a 
number of companies doing a lot of investment in anti-terror 
devices and homeland security activity, and then 9/11 occurred, 
and all of a sudden there was things that dried up. The 
insurance dried up for terror coverage. Companies were not 
willing to do any more investment in R&D for homeland security 
technology. We had to stimulate that, and we did, through the 
SAFETY Act and TRIA and so forth.
    I just don't want us to be in that situation, where we do 
nothing here, we say status quo; an attack occurs that we can 
all agree on is of the kind that we're talking about; and then 
we're standing here saying, why didn't we do something when we 
had a chance?
    We have a chance to be proactive and to get out ahead of 
this and do the kinds of things that will stimulate and make 
sure that we are belt-and-suspendering all of this, as the 
doctor alluded to. I think this is one of the tools to do that.
    Mr. Langevin. Okay. Very good.
    My time is way over. I will yield back.
    But, if I could, Mr. Chairman, I know that Mr. Richmond had 
additional questions, and I have additional questions. If I 
could, without objection, I'd like to submit those for the 
record. If our witnesses would respond to those in writing, 
we'd be grateful.
    Mr. Ratcliffe. Absolutely.
    The gentleman yields back.
    I thank all of the witnesses here for your valuable 
testimony and the Members for all of their questions.
    As Congressman Langevin said, some Members have additional 
questions, which we'll ask you to respond to in writing. 
Pursuant to committee rule 7(e), the hearing record will be 
held open for a period of 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 3:45 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
